                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General



                              Audit of Bureau of Oceans and International
                                 Environmental and Scientific Affairs
                                Administration and Oversight of Funds
                              Dedicated to Address Global Climate Change

                                             Report Number AUD/CG-12-40, July 2012




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                     UNCLASSIFIED


Acronyms
A/LM/AQM Bureau of Administration, Office of Logistics Management, Office of
           Acquisitions Management
APP        Asia Pacific Partnership on Clean Development and Climate
A/OPE      Bureau of Administration, Office of the Procurement Executive
COR        contracting officer’s representative
Department Department of State
DOE        Department of Energy
DOSAR      Department of State Acquisition Regulations
DQA        Data Quality Assessment
FAH        Foreign Affairs Handbook
FAR        Federal Acquisition Regulation
GCCI       Global Climate Change Initiative
GO         Grants Officer
GOR        Grants Officer Representative
GPD        Grants Policy Directive
OES/EGC    Bureau of Oceans and International Environmental and Scientific Affairs, Office
           of Global Change
OIG        Office of Inspector General
OMB        Office of Management and Budget
PPR        Performance Plan and Report
USAID      U.S. Agency for International Development




                                     UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Objective……. .................................................................................................................................4

Audit Results ..................................................................................................................................5

           Finding A. Greater Management Attention to Data Quality Needed To
                      Report Climate Change Program Results Accurately.……………………….. 5
           Finding B. Improvements Needed for Comprehensive Monitoring of Climate Change
                      Program Grants ................................................................................................11
           Finding C. Improvements Needed for the Effective and Efficient Administration of
                      Climate Change Program Grants .....................................................................18
           Finding D. Improvements Needed for Comprehensive Monitoring of Climate Change
                      Interagency Acquisition Agreements .............................................................24
           Finding E. Improvements Needed for the Effective and Efficient Administration of
                      Climate Change Interagency Acquisition Agreements. ...................................32
           Finding F. Greater Management Attention Needed for the Application and
                      Administration of Interagency Transfers .........................................................36

List of Recommendations ..............................................................................................................41

Appendices
      A. Scope and Methodology................................................................................................44
      B. Federal Policies Governing Interagency Acquisition Agreements and
           Interagency Agreements .............................................................................................49
      C. Intra-Governmental Expenses Transferred From the Department of State to Other
           U.S. Government Agencies in FYs 2010 and 2011 ....................................................52
      D. Bureau of Oceans and International Environmental and Scientific Affairs Response .53
      E. Bureau of Administration Response ..............................................................................64

Major Contributors to This Report ................................................................................................66




                                                          UNCLASSIFIED
                                         UNCLASSIFIED


                                     Executive Summary
        The Department of State (Department) plays a significant role in implementing the
Global Climate Change Initiative (GCCI), which is part of the U.S. foreign assistance strategy to
foster a low-carbon future and promote sustainable and resilient societies. The majority of the
Department’s foreign assistance for global climate change is administered through the Bureau of
Oceans and International Environmental and Scientific Affairs, Office of Global Change
(OES/EGC). From FYs 2006–2010, OES/EGC programmed approximately $214 million for
global climate change programs.

       The Office of Inspector General (OIG) performed an audit of OES’s administration and
oversight of funds dedicated to address global climate change to be responsive to global
developments and the priorities of the Department. The primary objective of this audit was to
determine whether the administration and oversight by OES were sufficient to ensure that
contributions toward international climate change efforts were expended in accordance with
Department policy and were contributing to the U.S. Government’s global climate change goals.

        OIG found a number of areas that require greater management attention in order to
improve OES administration and oversight of climate change programs. Specifically, OIG found
that OES did not always follow guidance on how to execute Data Quality Assessments (DQA) to
ensure that data used to report and support programmatic results were accurate. In addition, OIG
found that policy guidance relating to managing and monitoring climate change grants and
interagency acquisition agreements was not always followed by OES. Without greater attention
to the comprehensive administration and monitoring of grants and interagency acquisition
agreements, OES may not always have reasonable assurance that funds for climate change have
been expended in accordance with Department policies; that the recipient performed program
activities as stipulated in the awards or agreements; and that the program’s indicators, goals, and
objectives were achieved. Finally, OIG determined that OES did not always administer
interagency acquisition agreements in accordance with Department policies and Federal
regulations. As a result, interagency acquisition agreements emanating from OES, and,
according to Department officials, possibly other Department bureaus, were not always being
efficiently and effectively administered and managed in the areas of policy application, review
and approval, and overall program management.

         OIG made 18 recommendations to improve the administration and oversight of climate
change programs. Specifically, OIG recommended that OES conduct DQAs to ensure that the
data used in reporting programmatic results are as complete, accurate, consistent, and
supportable as possible; ensure that $600,000 in Economic Support Funds awarded to the
U.S. Agency for International Development (USAID) is properly accounted for; and improve the
overall administration and monitoring of grants and interagency agreements. OIG also
recommended that the Bureau of Administration, Office of the Procurement Executive (A/OPE),
develop and issue standardized Department policies and procedures for the administration,
review, and approval of interagency acquisition agreements and interagency agreements and that
it revise the State First Policy to establish that the policy also applies to interagency agreements.


                                                  1

                                         UNCLASSIFIED
                                              UNCLASSIFIED

        OIG provided OES/EGC and A/OPE a draft of this report on May 25, 2012. In OES’s
June 18, 2012, response to the draft report (see Appendix D), OES concurred with
Recommendations 1–16. In A/OPE’s May 30, 2012, response to the draft report (see Appendix
E), A/OPE concurred with Recommendations 17 and 18, stating that a working group had been
convened to carry out preparing the guidance recommended. Based on the bureaus’ responses,
OIG considers all 18 of the report’s recommendations resolved. However, each recommendation
will remain open until documentation is provided showing that the recommendations have been
fully implemented. (A summary of management’s responses to the recommendations and OIG’s
replies are presented after each recommendation.)

                                               Background

The United States Climate Change Strategy

        On September 22, 2010, President Obama signed the Presidential Policy Directive on
Global Development. The Directive recognized that global development is vital to U.S. national
security and is a strategic, economic, and moral imperative for the United States. One main
outcome of the Directive, GCCI, aims to integrate climate change into the U.S. foreign assistance
strategy to foster a low-carbon future and promote sustainable and resilient societies in coming
decades. Three agencies–the Department of State (Department), USAID, and the Department of
the Treasury–form the core of the GCCI.

        In December 2010, the Secretary of State released the First Quadrennial Diplomacy and
Development Review, which reaffirmed the goals of the GCCI to address climate change threats.
Within the Department, the Office of the Special Envoy for Climate Change plays a central role
in developing U.S. international policy on climate by representing the United States
internationally at the Ministerial level in all bilateral and multilateral negotiations regarding
climate change. OES/EGC contributes to the U.S. Government’s engagement in international
climate negotiations through a range of bilateral and regional partnerships related to clean energy
and climate change and is responsible for administering the majority of the Department’s global
climate change foreign assistance contributions and programs.

        OES/EGC plays a part in coordinating U.S. policy development and activities related to
international climate change. In 2006, OES/EGC began receiving additional programmatic
funding to carry out climate change programs–most notably under the Asia-Pacific Partnership
on Clean Development and Climate (APP). The APP programs were carried out in seven
countries1 and were focused on meeting goals for energy security, national air pollution
reduction, and climate change in ways that promote sustainable economic growth and poverty
reduction. However, the U.S. climate change strategy evolved into a more global approach in
2010 with the introduction of the GCCI under the following three pillars: Promoting Clean
Energy, Conserving Forests and Promoting Sustainable Land Use, and Building Resilience to
Climate-Related Disasters and Damages (Adaptation). Since the strategic shift, the

1
 The seven partner countries of the APP were Australia, Canada, China, India, Japan, South Korea, and the United
States.

                                                        2

                                              UNCLASSIFIED
                                               UNCLASSIFIED

programmatic focus of OES/EGC turned to administering programs that address all three pillars
in multiple countries worldwide.

OES/EGC Climate Change Funding

        From FYs 2006–2010, OES/EGC received approximately $214 million in appropriations
and funded approximately 96 climate change programs through multilateral, bilateral, and
plurilateral2 assistance. Multilateral assistance is provided through contributions to public
international organizations,3 while bilateral and plurilateral assistance is provided through
interagency acquisition agreements and grants. The mechanisms used to fund OES/EGC climate
change programs that were active as of September 2011 are shown in Figure 1.

                     Figure 1. Funding Mechanisms for Office of Global Change
                                Programs Active as of September 2011

                                                                     Other 632(a) Transfers: 1%


                                             Voluntary
                                         Contributions: 36%      632(b) Interagency
                                                                     Acquisition
                                                                  Agreements: 52%
                                               Grants: 11%




Mechanisms Used by OES To Fund Climate Change Programs

        As shown in Figure 1, OES/EGC used both interagency acquisition agreements and
grants to fund the climate change programs.

        The Department’s Federal Assistance Policy Handbook, dated March 2011, states that an
interagency acquisition agreement “represents a contractual agreement between agencies for the
acquisition of goods or services.” Sections 632(a) and 632(b) of the Foreign Assistance Act of
1961, as amended,4 provide the authority for the Department to transfer foreign assistance funds
to other U.S. agencies within certain parameters. OES/EGC uses primarily 632(b) transfers,
which allow the requesting agency to acquire, on a reimbursable basis, the services or supplies of
the servicing agency. OES/EGC entered into 51 interagency acquisition agreements, totaling
2
  Plurilateral is defined as follows: “Among several countries–more than two, which would be bilateral, but not a
great many, which would be multilateral.” Source: Encyclo Online Encyclopedia,
<http//:www.encyclo.co.uk/define>, accessed on Apr. 26, 2012.
3
  OIG did not review contributions made to public international organizations because the use of funds generally is
not subject to audit or to reporting requirements by the U.S. Government. Examples of OES/EGC-funded
contributions are the Least Developed Countries Fund, the Special Climate Change Fund, and the Forest Carbon
Partnership Facility.
4
  Pub. L. No. 87-195 (codified at 22 U.S.C. § 2392).

                                                             3

                                               UNCLASSIFIED
                                             UNCLASSIFIED

approximately $115 million, from FYs 2006–2010. Of the 51 agreements, two are
632(a) transfers and 49 are 632(b) transfers.

        The Federal Assistance Policy Handbook also defines a grant as “an assistance
instrument used when the principal purpose is the transfer of money, property, or services to
accomplish a public purpose of support or stimulation authorized by federal statute when it is
anticipated that there will be no substantial involvement between the agency and the recipient
during performance.” OES/EGC uses sole source and competitive grants to carry out climate
change programs, and from FYs 2006–2010, it administered 42 grants,5 totaling approximately
$34 million.

                                                 Objective
        The primary objective of this audit was to determine whether the OES administration and
oversight were sufficient to ensure that contributions toward international climate change efforts
were expended in accordance with Department policy and were contributing to the
U.S. Government’s global climate change goals. (The scope and methodology of the audit are
detailed in Appendix A.)




5
 These 42 grants included nine cooperative agreements, which require greater U.S. Government participation as
“substantial involvement” than do grant awards. Cooperative agreements are managed using grants-related policies.

                                                        4

                                             UNCLASSIFIED
                                               UNCLASSIFIED


                                                Audit Results

Finding A. Greater Management Attention to Data Quality Needed To
Report Climate Change Program Results Accurately
         Of the 196 climate change programs, totaling $34 million, selected as part of the original
sample, OIG determined that for four programs7 (21 percent), OES/EGC did not always ensure
the quality and supportability of data used to report programmatic results in the FY 2010 Foreign
Assistance Performance Plan and Report (PPR).8 This occurred because OES/EGC did not fully
implement the guidance for conducting DQAs9 to help ensure that the data used to report results
in the PPR were complete, accurate, consistent, and supportable. For example, OES/EGC did
not always implement the six-step sample methodology provided by the Office of U.S. Foreign
Assistance Resources to include step 3, which required a review of data collection methodologies
used by recipients and verification of what recipients provided against raw data sources. As a
result, the programmatic results reported by OES may not always be reliable for the purpose of
gauging whether climate change indicators are being met.

Annual Performance Planning and Reporting

        Reporting a program’s performance to ensure transparency is an important part of foreign
assistance. Data from the PPRs fulfill the requirements of the Government Performance and
Results Act of 1993,10 which emphasizes accountability and transparency in agency and program
performance. In addition, information captured in the PPR supports the heightened interest in
performance, performance management, and evidence-based reporting by interested parties such
as the administration, the Congress, and public groups. The Office of U.S. Foreign Assistance
Resources provides guidance on the collection and reporting of PPR data and uses PPR data and
narratives to help inform current and out-year budget decisions, respond to Congressional
inquiries, prepare speeches and testimonies for Department of State and USAID principals, and
develop the Annual Performance Report/Annual Performance Plan.

       For the PPR submission, OES/EGC provided narratives that summarized how EGC
programs addressed OES mission objectives and provided information on key issues that
described how relevant results were achieved. OES/EGC also provided numerical data for PPR
6
  OIG’s original sample of 19 climate change programs consisted of 11 interagency acquisition agreements and eight
grants, five of which were cooperative agreements. OIG conducted an independent verification and validation of 12
of the 19 programs, to include five interagency acquisition agreements and seven grants, four of which were
cooperative agreements.
7
  Two of the four programs reported results under multiple indicators. Specifically, S-OES-07-IAA-0018 reported
results under Indicators #1, #2, and #3, and S-OES-07-IAA-0023/0015 reported results under Indicators #1 and #2.
8
  The PPR presents the results that the Department Operating Unit achieved during the fiscal year and sets targets for
results projected in out-years.
9
  DQAs are systematic reviews of data reported for each indicator based on the five data quality standards of
Validity, Reliability, Timeliness, Precision, and Integrity.
10
   The Guidance for the FY 2011 Performance Plan and Report states that the Government Performance and Results
Act of 1993 (Pub. L. No. 103-62) has been superseded by the Government Performance and Results Act
Modernization Act of 2010 (Pub. L. No. 111-352).

                                                          5

                                               UNCLASSIFIED
                                             UNCLASSIFIED

results, which, for FY 2010, were captured for the following four indicators:11

            Indicator #1: Number of people receiving U.S. Government supported training in
             global climate change including framework convention on climate change,
             greenhouse gas inventories, mitigation, and adaptation analysis;
            Indicator #2: Number of people receiving U.S. Government supported training in
             environmental law, enforcement, public participation, and cleaner production
             policies, strategies, skills, and techniques;
            Indicator #3: Number of improved laws/policies/regulations/agreements related to
             pollution and urban environment drafted with U.S. Government assistance; and
            Indicator #4: Quantity of greenhouse gas emissions, measured in metric tons of
             carbon dioxide equivalent, reduced or sequestered as a result of U.S. Government
             assistance.12

Quality and Supportability of Data Used To Report Climate Change Program Results

       OES/EGC did not always ensure the quality and supportability of data used to report
programmatic results in the FY 2010 Foreign Assistance PPR for four of the 19 climate change
programs selected as part of OIG’s original sample. In response to questions on how data were
gathered and reported, OES/EGC explained:

        Per F [Office of U.S. Foreign Assistance Resources] guidance for the PPR, both
        primary and secondary data sources are acceptable for PPR reporting.

        EGC’s PPR reporting relies predominantly on primary data sources as obtained
        via IAA [interagency acquisition agreement] and grant reporting. Whenever EGC
        counts data from a “secondary” data source or inference from a primary data
        source, the resulting/reported numbers are extremely conservative estimates and
        represent such a small fraction of the total numbers achieved as to have a de
        minimis [minimal] effect on total PPR results annually. Case studies, booklets,
        educational materials, etc. are, by design, considered educational and training
        materials.

        Using this interpretation of the Office of U.S. Foreign Assistance Resources guidance,
OES/EGC program officials applied two methods to construct the results for the FY 2010 PPR.
First, officials obtained information from performance reports received from interagency
acquisition agreement and grant recipients, which were considered primary sources. Second,
OES/EGC program officials made inferences or developed “extremely conservative estimates”
from primary data sources, which OES/EGC considered secondary data sources.



11
   An OES/EGC program official stated that not all program recipients are required to report against these four
indicators and that some of the program recipients reported against multiple indicators for FY 2010.
12
   An OES/EGC program official stated that OES/EGC was not required to report against this indicator for FY 2010
but will be required to report results against this indicator for FY 2011.

                                                       6

                                             UNCLASSIFIED
                                             UNCLASSIFIED

        OIG reviewed performance reports submitted by grant and interagency acquisition
agreement recipients to determine whether the results reported in the PPR could be supported by
the information in the recipient performance reports. OIG could validate the reported numbers in
the PPR against data submitted by recipients for three climate change programs13 within OIG’s
original sample. However, examples shown of unsupportable results for FY 2010 Indicators #1,
#2, and #3, which are from four of OIG’s original 19 programs selected as part of OIG’s sample,
are presented in Table 1. The unsupportable results are based on OIG’s review and validation of
the reported numbers and/or performance reports submitted by grant and interagency acquisition
agreement recipients.

Table 1. Assessment of Climate Change Program Results Reported for FY 2010

FY 2010 Indicator #1 - Number of people receiving U.S. Government supported training in
global climate change including framework convention on climate change, greenhouse gas
inventories, mitigation, and adaptation analysis
                     Number
                    Reported by
     Program Number OES/EGC                            Source and Description of Training
                                   The September 30, 2010, performance report stated that “assuming
                                   [emphasis added]” that an average of three engineers and technical staff
                                   members received training for each of the 39 remaining sites, then 117
S-OES-08-IAA-0018         117      additional staff members were trained. OES/EGC officials could not provide
                                   additional documentation to support this assumption but noted that they
                                   relied on this information because recipient reporting “has been consistent
                                   over time [emphasis added].”
                                   The June 30, 2010, final performance report listed all training programs held
                                   throughout the life of this program, all of which occurred between December
                                   2007 and September 2009, prior to FY 2010. Additionally, the number of
                                   individuals trained totals only approximately 370 participants in the final
S-OES-07-IAA-
                          600      report, not 600. OES/EGC officials stated that they received an e-mail from
0023/0015
                                   the recipient indicating that it combined two interagency acquisition
                                   agreements to support the numbers reported for this training; however,
                                   OES/EGC did not provide a copy of this e-mail, and OIG could not locate it
                                   in the program files.
                                   The February 25, 2010, performance report for one of the sub-projects of this
                                   agreement stated that the recipient published a book in the local language and
                                   distributed 50,000 copies during an international book fair. The performance
                                   report did not discuss the training of 50 individuals. OES/EGC officials
S-OES-07-IAA-0018          50
                                   stated that they used the 50,000 copies of the published book and an
                                   “extremely conservative estimate [emphasis added]” of 1/10 of 1 percent
                                   (50,000 x .001 = 50) to ascertain the number of people who could have been
                                   trained by reading this book.




13
  For one of the three programs, No. S-OES-07-IAA-0018, an acceptable source was validated for one of the sub-
projects reported under this program.

                                                        7

                                             UNCLASSIFIED
                                              UNCLASSIFIED


                                    The OES/EGC description to support this entry stated that 15 case studies on
                                    conventional buildings, solar passive buildings, and compliant buildings
                                    were prepared and developed for integration on the Web site. OIG asked
S-LMAQM-08-CA-
                           15       OES/EGC officials to explain how it could consider “15 case studies” as
012
                                    reportable against this indicator. The officials responded that case studies are
                                    considered training materials and that they used a “conservative estimate
                                    [emphasis added]” of one individual trained per case study.


FY 2010 Indicator #2 - Number of people receiving U.S. Government supported training in
environmental law, enforcement, public participation, and cleaner production policies, strategies,
skills, and techniques
                    Number
                   Reported by
    Program Number OES/EGC                              Source and Description of Training
                                   The June 2010 performance report for one of the sub-projects of this
                                   agreement stated that 450 professionals had been trained since the last project
                                   update. The July 12, 2010, performance report for another of the sub-projects
                                   of this agreement stated that a workshop had been organized in October 2009
                                   to help inform, support, and improve regional understanding of existing and
S-OES-07-IAA-0018         466
                                   ongoing activities and processes but did not note that 16 people attended the
                                   workshop. When requested, OES/EGC officials stated that this secondary
                                   source was based on prior experience regarding representation at such
                                   training and used eight countries with two representatives from each country
                                   (8 x 2 = 16) as their source.
                                   The OES/EGC description to support this entry provided dates and the
                                   number of people trained on each date as follows: March 2009 (45),
S-OES-07-IAA-                      June 2009 (40), September 2009 (35, 25, and 15 at three separate events).a
                          135
0023/0015                          OIG asked OES/EGC officials to explain how they could consider these
                                   sources as reportable against FY 2010 numbers, since all of the training
                                   occurred during FY 2009. OES/EGC did not provide a response.
                                   OES/EGC’s description to support this entry stated that 15 case studies on
                                   conventional buildings, solar passive buildings, and compliant buildings were
                                   prepared and developed for integration on the Web site. OIG asked
                                   OES/EGC officials to explain how it could consider “15 case studies” as
S-LMAQM-07-CA-                     reportable against this indicator and whether the entry was a duplicate entry to
                           15
337b                               Grant S-LMAQM-08-CA-012, as reported under Indicator #1. OES/EGC
                                   officials did not state whether this was a duplicate entry but again
                                   responded that case studies are considered to be training materials and that
                                   they had used a “conservative estimate [emphasis added]” of one
                                   individual trained per case study.
a
  OIG noted that OES/EGC’s addition of the training numbers under this agreement was underreported by
25 individuals.
b
  This program was not one of the 19 programs selected as part of OIG’s sample, but it was included to determine
whether the reporting was duplicative of Grant S-LMAQM-08-CA-012, which was part of OIG’s sample.




                                                         8

                                              UNCLASSIFIED
                                             UNCLASSIFIED

FY 2010 Indicator #3 - Number of improved laws/policies/regulations/agreements related to
pollution and urban environment drafted with U.S. Government assistance
                 Number
                Reported by
 Program Number OES/EGC Source and Description of Laws, Policies, Regulations, and Agreements
                                 OES/EGC’s description to support this entry stated that one of the sub-
                                 projects of this agreement accomplished an “Asia Lighting Compact” Web
S-OES-07-IAA-0018         1      site in FY 2010. OIG asked OES/EGC officials to explain how they could
                                 consider a Web site to be a law, policy, regulation, or agreement, but the
                                 officials did not provide a response.
Source: OIG generated based on analysis of OES/EGC FY 2010 PPR Performance Indicator Results.

The Importance of Conducting Data Quality Assessments

        OES/EGC did not fully implement the guidance for conducting DQAs to help ensure that
the data used in reporting programmatic results were complete, accurate, consistent, and
supportable. Annex 9 to the Guidance for the FY 2010 Performance Plan and Report, issued by
the Office of U.S. Foreign Assistance Resources, states that DQAs are important so that
managers know if they can trust the data for use in making programmatic decisions and that
performance data should be as complete, accurate, and consistent as management needs and
resources permit. The FY 2010 guidance states that DQAs are systematic reviews of data
reported for each indicator based on the following five data quality standards:

           Validity – Do data clearly and directly measure what is intended?
           Reliability – Using the same measurement procedures, can the same results be
            obtained repeatedly?
           Timeliness – Are data sufficiently current and available frequently enough to
            inform management decision-making at the appropriate levels?
           Precision – What is the acceptable margin of error given the likely
            management decisions to be affected?
           Integrity – Are mechanisms in place to reduce the possibility that data are
            manipulated for any reason?

       While the FY 2010 guidance notes that a DQA does not require each of these data quality
standards to be 100 percent met, it does provide a sample methodology by step for undertaking a
DQA:

        Step 1: Sort indicators by data source–primary data (funded by and/or collected by the
                U.S. Government or one of its contractors/grantees) or secondary data (collected
                by a government or another source not funded by the U.S. Government).
        Step 2: For each secondary source indicator, identify the source of the data: national
                institutions, international organizations, academic institutions in the host country,
                etc. If possible, identify the methodology used to collect and validate the
                information being used from this source.



                                                       9

                                             UNCLASSIFIED
                                       UNCLASSIFIED

       Step 3: For all primary data sources, ask the relevant U.S. Government
               contractors/grantees to send a written description of their data collection
               methodology. To verify what they have provided, meet with them and ask to see
               proof of the process steps they say they have taken. Ask to see the raw data
               sources (for example, training sign-in sheets, expert reviewer checklists, or
               completed surveys). Complete a form for each indicator reviewed in this manner.
       Step 4: Attach these dated reviews and the documentation for these indicators in your
               files in case an audit occurs. A good practice is to photocopy the cover of the
               report from which the information is taken, the page on which the data are found,
               and staple this to the page containing the indicator.
       Step 5: Once the DQA for each indicator is completed, note this on the table and pull the
               requisite information on data limitations into the file.
       Step 6: Repeat this process every 3 years for every indicator reported.

        As noted in step 1, the Office of U.S. Foreign Assistance Resources defines a primary
data source as one funded by and/or collected by the U.S. Government or one of its
contractors/grantees and a secondary data source as one collected by a government or another
source not funded by the U.S. Government. OES/EGC’s interpretation of primary data sources
as obtained via interagency acquisition agreement and grant reporting aligns with that definition.
However, OIG determined that OES/EGC’s interpretation of secondary data sources as
inferences or extremely conservative estimates from primary data sources is contrary to the
definition of a secondary data source. For example, in the sample that OIG reviewed, OES/EGC
did not rely on a government or other source not funded by the U.S. Government as a secondary
source for the number of individuals reported as trained against Indicator #1 for Program
S-LMAQM-08-CA-012. Instead, OES/EGC decided that the 15 case studies prepared and
reported by the grant recipient were considered to be training materials and developed a
“conservative estimate” of one individual trained per case study and applied this as a secondary
data source.

        OIG also reviewed DQAs completed by OES/EGC during 2008 and 2011 for multiple
indicators. While the DQAs addressed the five data quality standards of Validity, Reliability,
Timeliness, Precision, and Integrity, they did not follow the recommended methodology for
undertaking a DQA as provided in the PPR guidance. Specifically, the DQAs did not implement
step 2 (identifying sources of data for secondary data sources and, if possible, identifying the
methodology used to collect and validate the information being used from these sources), step 3
(asking primary data sources to send a written description of their data collection methodology
and verifying what they provided with proof of process steps or raw data sources), and step 4
(maintaining the dated reviews and documentation for the indicators in their files).

Conclusion

       Without fully implementing DQAs that consider appropriate sources of data, that review
methodologies used by those sources to collect and validate data, and that verify what recipients
have provided with proof of processes and raw data sources, the data used by OES/EGC to report
programmatic results for climate change programs cannot be consistently relied upon by

                                                10

                                       UNCLASSIFIED
                                         UNCLASSIFIED

decision-makers. OIG recognizes that additional information is often provided in narrative sections
of the PPR to further report climate change program accomplishments. However, all data must be
complete, accurate, consistent, and fully supportable to ensure that program results can provide a
direct link to climate change indicators and goals and can be used to accurately influence current and
out-year budget decisions, responses to Congressional inquiries, and speeches and testimonies
for Department of State and USAID principals.

       Recommendation 1. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, conduct Data Quality
       Assessments in accordance with the six-step methodology from the annual guidance
       provided by the Office of U.S. Foreign Assistance Resources to ensure that the data used
       in reporting results are as complete, accurate, consistent, and supportable as possible.

       Management Response: OES concurred with the recommendation, stating that it will
       “conduct Data Quality Assessments” as specified in the recommendation and “will
       continue to consult with” the Office of U.S. Foreign Assistance Resources staff “in the
       implementation of DQA [Data Quality Assessments] guidance.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that DQAs will be conducted in accordance with the six-step
       methodology from the annual guidance provided by the Office of U.S. Foreign
       Assistance Resources.

Finding B. Improvements Needed for Comprehensive Monitoring of Climate
Change Program Grants
        OIG identified five areas in which climate change grants monitoring needs to be
improved. Specifically, OES/EGC should (1) ensure that a Grants Officer Representative (GOR)
is assigned throughout the life cycle of all grant awards, (2) develop grants monitoring plans,
(3) adequately document the reviews of quarterly performance and financial reports, (4) require
the timely submission of all required reports from the recipient prior to making payments, and
(5) perform site visits to validate recipient performance. These grants monitoring requirements
were lacking because relevant Department policies and procedures were not consistently
implemented by OES/EGC’s GORs. For example, none of the seven grant awards OIG reviewed
had monitoring plans implemented to assist in the reporting of the grants’ performance. Without
comprehensive monitoring of grants, the Department may not always have reasonable assurance
that Federal funds were spent in accordance with the grant award; that the grant recipient
performed program activities as dictated in the grant award; and that the program’s indicators,
goals, and objectives were achieved.




                                                 11

                                         UNCLASSIFIED
                                             UNCLASSIFIED


Designation of Grants Officer Representatives

         OIG selected and reviewed seven14 climate change grants as part of its sample and found
that all seven had an original GOR designation memorandum. However, the three designated
GORs for all seven grants vacated their positions at some point during the execution of those
grants. Only one grant file contained a new designation memorandum for a replacement GOR to
assume the original GOR’s responsibilities. In lieu of a newly designated GOR for the other
grants, OES/EGC representatives stated that two project management officials “tag teamed” in
overseeing climate change grants and conducting GOR responsibilities.

       The Department’s Grants Policy Directive (GPD) 16, “Designation of Grants Officer
Representative,” Revision 2, dated September 21, 2010, states that the Grants Officer (GO) must
designate, in writing, a GOR to assist in the grants management administration of every domestic
Federal assistance award. The GPD further states that the GOR is responsible for ensuring that
the Department exercises prudent management and oversight of the award through monitoring
and evaluating the recipient’s performance and that the authorities given to the GOR are not re-
delegable other than as specified in the GO’s designation letter.

        GORs are extremely important to the management and oversight of Federal grants as the
“eyes and ears” of the GOs. Some of the GORs’ duties include, but are not limited to, ensuring
compliance with all the terms and conditions of the award, notifying the GO promptly of any
developments that could have a significant impact on the recipient’s performance, and evaluating
the recipient’s program effectiveness at the end of the program and submitting a final report to
the GO. Because it is important to have a designated GOR from the commencement to the close-
out of each award, GPD 16 states, “If the GOR is replaced during the period of the assistance
award, the Grants Officer shall prepare a new designation memorandum for the replacement
GOR and ensure that the Federal assistance recipient receives a copy as well.”

       A Standard Operating Procedures manual15 developed by OES/EGC states that
monitoring is the responsibility of the EGC Technical Lead assigned to each program, which is
contrary to GPD 16. The manual further states that some essential ways an EGC Technical Lead
can monitor a project include studying the time lines in the agreement and determining whether
implementation is on course and supporting the rationale for any no-cost extensions, as
necessary, for the attainment of project outcomes. The manual also states that if Technical Leads
are engaged in monitoring, whether via a physical site visit or direct engagement in activities or
outcomes, they should see a member of the Program Team for guidance on completing a report
form. While these are all important monitoring activities, they should be executed by the
assigned GOR and not re-delegated to the Technical Lead assigned to each climate change
program.



14
   These seven grants included four cooperative agreements. For the purposes of the audit, all cooperative
agreements were reviewed for compliance with applicable Department grants-related policies and procedures.
15
   OES/EGC provided OIG a PowerPoint of its standard operating procedures, referred to as the Standard Operating
Procedures manual throughout this report.

                                                       12

                                             UNCLASSIFIED
                                       UNCLASSIFIED

        Having a designated GOR during the life cycle of a grant is important to ensure that
OES/EGC has an authorized representative to exercise prudent management and oversight of the
award through monitoring and evaluating the recipient’s performance. Further, while additional
support by Technical Leads of certain program aspects is likely to strengthen a program’s overall
impact, responsibilities designated to a GOR should not be re-delegated to other program
officials to ensure prudent and continuous management and oversight of grant recipients’
performance.

       Recommendation 2. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change (OES/EGC), implement
       Grants Policy Directive 16, “Designation of Grants Officer Representative,” by ensuring
       that the Grants Officer completes current Grants Officer Representative (GOR)
       designation memorandums throughout the life cycles of all grants. OES/EGC should also
       update its Standard Operating Procedures manual by aligning all monitoring and
       evaluation responsibilities under the designated GOR as directed by Grants Policy
       Directive 16 and not allowing the re-delegation of responsibilities to other program
       officials unless specified in the designation memorandum.

       Management Response: OES concurred with the recommendation, stating that it “will
       support the implementation of Grants Policy Directive 16 by forwarding changes in GOR
       [Grants Officer Representative] designations to the Grants Officer in a timely way
       throughout the life cycle of all grants.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that GPD 16 has been implemented as described and
       documentation showing that the Standard Operating Procedures manual as it pertains to
       alignment of all monitoring and evaluation responsibilities under the designated GOR has
       been updated.

Developing Grants Monitoring Plans

        OIG did not find evidence that OES/EGC had developed monitoring plans for any of the
seven grants reviewed as part of OIG’s sample. The Department’s GPD 42, “Monitoring
Assistance Awards,” dated September 2, 2010, states that it is the responsibility of the GOR, in
consultation with the GO, to develop a monitoring plan that is appropriate for the program. The
GPD further states that the monitoring plan should include the frequency and types of monitoring
mechanisms to be employed and document the types of monitoring activities to be performed,
the frequency of these activities, and the individuals responsible for each activity. A monitoring
plan is important to proper grants management, as it will assist the GOR in measuring the
progress of the award and help ensure that goals and objectives are achieved. In addition, GPD
42 includes multiple templates for monitoring plans, such as the “Monitoring Plan Worksheet”
and the “Sample Narrative Monitoring Plans,” both of which include sections for documenting
the goals and objectives of the award and the results of recipient performance.




                                               13

                                       UNCLASSIFIED
                                         UNCLASSIFIED

         Without documented monitoring plans, OIG was unable to determine what monitoring
activities OES/EGC’s GORs used to ensure that the goals and objectives of the grant award were
achieved and funds were spent accordingly.

       Recommendation 3. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, ensure that the Grants
       Officer Representatives, in consultation with the Grants Officer, develop monitoring
       plans for all future grant awards using the suggested Department of State templates
       included in Grants Policy Directive 42, “Monitoring Assistance Awards.”

       Management Response: OES concurred with the recommendation, stating that it “will
       develop grants monitoring plans for all future awards” through guidance obtained from
       the Grants Officer and A/LM/AQM.

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that the GORs, in consultation with the GO, have developed
       the monitoring plans specified in the recommendation.

Documenting Reviews of Performance and Financial Reports

       OIG did not find evidence that reviews of quarterly performance reports were
documented by the GORs. For example, during its review of the seven grants chosen to be
sampled, OIG found that several of the performance reports did not include the required
elements as dictated by the grant agreement, such as the progress toward meeting project goals,
problems in implementing the program, corrective action plans, updates on expenditures, or
supporting documentation or products related to project activities. OIG also did not find
evidence that the GORs had provided a written evaluation of their respective reviews and
analyses of quarterly performance reports.

        Further, OIG did not find evidence that reviews of quarterly financial reports were
documented by the GORs. In particular, Grant S-LMAQM-GR-08-132 had incorrect figures and
calculations within its financial reports on multiple occasions. Specifically, the September 2009
quarterly financial report documented the amount of funds received from the Department for that
quarter instead of reporting the cumulative amount of funds received to date, as documented in
previous reports. The difference in the reported amounts was approximately $296,000; however,
this discrepancy was not identified or documented by OES/EGC. Under the same grant, for the
quarter ended June 30, 2010, the quarterly financial report showed on one page an unobligated
balance of $0.00 and another page showed an unobligated balance of approximately $363,000.
While a grant recipient official stated that discrepancies in the reports reflected errors that should
have been caught by the grantee, it is again unclear as to whether these financial reports were
reviewed, analyzed, and documented by OES/EGC’s GORs to verify timely and adequate
performance.

        OES/EGC requires grantees to submit quarterly performance and financial reports, as
dictated in each grant agreement. GPD 16 states that the GOR has the responsibility to review,


                                                 14

                                         UNCLASSIFIED
                                       UNCLASSIFIED

analyze, and provide written evaluation of required recipient performance and financial status
reports to verify timely and adequate performance. In addition, GPD 42 provides a template
titled “Discretionary Grants Monitoring Instrument” for documenting the review of quarterly
reports. This template includes the following areas as suggestions for reviewing and
documenting each grant:

          Project Status – A brief description of the project and the accomplishments of project
           goals to date.
          Problems/Successes – Description of any problems or successes that have been
           encountered or could be shared as “best practices.”
          Goals – An update on the status of the completion of project goals and, if not yet
           accomplished, a plan for accomplishing the goals.
          Participants and Expenditures – A table for recording participants and expenditures to
           date, including planned versus actual.

         Without appropriate review, analysis, and written evaluation of grantees’ performance
and financial reports, OES/EGC may not always have reasonable assurance that program goals
and objectives are being achieved throughout the project or that the grantee is performing
program activities as dictated in the grant agreement. By documenting reviews of quarterly
reports, OES/EGC could support the reported progress made in accomplishing each assistance
award task, including progress by fiscal year, on meeting goals, objectives, and indicators. The
documented review would also support that all expenditures were made in accordance with the
approved budget and that the amount of funds expended was commensurate with the level of
activity that had occurred.

       Recommendation 4. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, implement the
       requirement in Grants Policy Directive 16, “Designation of Grants Officer
       Representative,” for the Grants Officer Representatives (GOR) to review, analyze, and
       provide written evaluation of required recipient Program Performance and Financial
       Status Reports to verify timely and adequate performance and require the GORs’ written
       evaluation to be documented using the template included in Grants Policy Directive 42,
       “Monitoring Assistance Awards.”

       Management Response: OES concurred with the recommendation, stating that it would
       “seek clarification and guidance” from the GO and/or A/LM/AQM “to appropriately
       document the reviews of written programmatic and financial reports.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that the requirement in GPD 16 pertaining to the GOR having
       to review, analyze, and provide written evaluations of Program Performance and
       Financial Status Reports has been implemented and that the GORs’ written evaluations
       have been documented using the template included in GPD 42.




                                               15

                                       UNCLASSIFIED
                                             UNCLASSIFIED


Timeliness of Reports by the Climate Change Grant Recipient

        OIG found evidence that quarterly performance and/or financial reports had been
submitted late for all seven grants reviewed, often with no followup procedures having been
performed by the program office. Delinquent reports ranged from minor, with one grantee
submitting one quarterly financial report 18 days late, to egregious, with one recipient that had
been awarded two grants not submitting any of the required quarterly financial reports for the
entire length of time of both awards.

        OES/EGC requires grantees to submit quarterly performance and financial reports in
accordance with the terms of the agreement. For example, the language in Grant S-LMAQM-08-
GR-132, which is similar to the language contained in all seven grants included in OIG’s sample,
states that the grantee is required to submit financial and performance reports on a quarterly basis
no more than 30 days following the end of each calendar year quarter (March 31, June 30,
September 30, and December 31).

        Regarding delinquency of reports, the Foreign Affairs Handbook (FAH)16 states:

        When a financial assistance recipient has been determined to be delinquent in
        filing reports, the program office shall send a letter reminding the recipient of
        delinquent reports. After 30 days, if the recipient has not responded, the bureau
        will send a second notice letter. If after an additional 30 days the recipient has not
        responded, the bureau will send a third and final notice letter. After the third
        notice has been sent, the bureau will suspend all payments until such time as the
        overdue reports are filed.

         For Grants S-LMAQM-08-CA-017 and S-LMAQM-08-CA-033, both executed by the
same grant recipient, OIG did not find evidence that any of the required quarterly Financial
Status Reports (Standard Form-269) had been submitted by the grant recipient for the length of
either award.17 However, the grant recipient received funds on an incremental basis throughout
the life cycle of the awards, even though the recipient failed to submit the required financial
reports.

        OIG reviewed multiple e-mails regarding the late reporting for both grants, including an
e-mail dated March 11, 2009, in which the delinquency of Financial Status Reports was
mentioned to the GOR but for which the GOR still recommended financial payments for both
grant recipients. In an e-mail dated December 22, 2009, an OES/EGC official again noted that
the award recipient had not submitted any quarterly Financial Status Reports in 2008 and 2009
for either grant award. However, both grants ended on December 31, 2009, and all funds were
provided to the grant recipient as of that date, for a total amount of $1.1 million for both grants.



16
  4 FAH-3 H-674, “Monitoring – Delinquent Reports.”
17
  The period of performance for the award ending -017 was February 25, 2008, to December 31, 2009, and for the
award ending -033 was March 10, 2008, to December 31, 2009.

                                                      16

                                             UNCLASSIFIED
                                       UNCLASSIFIED

        Without the submission of timely performance and financial reports, proper followup by
OES/EGC on delinquent reports, or suspension of all payments until the overdue reports are
filed, OES/EGC did not always have reasonable assurance that Federal funds were spent in an
appropriate manner or that program activities were performed as dictated in the grant award.

       Recommendation 5. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, take appropriate actions
       in accordance with the Foreign Affairs Handbook (4 FAH-3 H-674) when program
       performance reports and financial reports are not submitted in a timely manner.

       Management Response: OES concurred with the recommendation, stating that it would
       use the FAH, 4 FAH-3 H-674, “to take action when program performance and financial
       reports are not submitted in a timely manner.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has procedures to take appropriate actions in
       accordance with the FAH when program performance reports and financial reports are
       not submitted in a timely manner.

Performance and Documentation of Site Visits

         OIG found that OES/EGC had conducted two site visits for climate change programs
funded via grants in September 2008 and April 2010. The site visits were formally documented
in trip reports, and many grantees were reviewed during each visit. During the September 2008
site visit, the GOR reviewed five grants in India, including three of the awards in OIG’s sample.
During the April 2010 site visit, the GOR reviewed four grants in India, including two of the
awards in OIG’s sample. However, OIG noted that OES/EGC’s GORs did not complete the in-
depth reviews as prescribed in the Department’s GPD 16 and GPD 42 during their site visits.
For example, the reports typically summarized meetings held with grantee officials where only
the statuses of the programs were discussed. These site visits by the GOR did not include a
review of grantee documentation that supported quarterly reports submitted to OES/EGC and
served as evidence that activities occurred, accounting records that ensured that adequate
documentation was maintained to support award expenditures, and documentation that provided
evidence that the recipient was monitoring its own sub-recipients to comply with the terms and
conditions of the Federal assistance agreement.

        GPD 16 describes the responsibility of the GOR to maintain contact, including site visits
and liaison, with the award recipient. The GPD further states that after visiting the recipient’s
location of performance, the GOR should promptly submit findings to the GO through a trip
report that might include, as appropriate, (a) actual performance versus scheduled performance;
(b) action needed, if any, to restore assistance award schedule; and (c) costs incurred versus
projections.

               GPD 42 also states:



                                               17

                                       UNCLASSIFIED
                                        UNCLASSIFIED

       On-site visits substantiate sound financial management, program progress, and
       compliance with laws, regulations, and policies. On-site visits also provide an
       opportunity to look at the recipient’s accounting records to ensure that adequate
       documentation is being maintained to support award expenditures. In addition,
       visits permit the opportunity to ensure the recipient is monitoring its own sub-
       recipients to comply with the terms and conditions of the Federal assistance
       agreement.

       GPD 42 includes templates for documenting site visits titled “Monitoring Site Visit
Worksheet” (this form may be sent to the recipient for completion and notes that verification of
submitted documentation may be conducted by Department officials) and “Monitoring
Assistance Review Guide Worksheet” (this form is to be used during site visits by the
monitoring team).

       Without active monitoring through regular site visits and data verification and thoroughly
documented reviews of those site visits, OES/EGC did not have reasonable assurance that data
used for performance-based decision-making and for reporting were valid and reliable. A
program to monitor data quality with regular site visits, especially for those grant recipients
considered “high-risk,” may identify and prevent data from being unreliable.

       Recommendation 6. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, implement the guidance
       provided in Grants Policy Directive (GPD) 16, “Designation of Grants Officer
       Representative,” and GPD 42, “Monitoring Assistance Awards,” and require Grants
       Officer Representatives to perform site visits for each grant recipient at least once during
       the life of the agreement or once per year for those recipients identified as “high risk.”
       These visits should then be documented on templates similar to the Monitoring
       Assistance Review Guide Worksheet template included in GPD 42.

       Management Response: OES concurred with the recommendation, stating that it would
       document site visits “on forms similar to the templates contained in GPD [Grants Policy
       Directive] 42.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has procedures in place pertaining to site visits and
       documentation showing that the visits have been documented on the templates similar to
       the template in GPD 42.

Finding C. Improvements Needed for the Effective and Efficient
Administration of Climate Change Program Grants
       Based on its review of a sample of grants administered by OES for selected climate
change programs, review of pertinent Department policies, and discussions with officials from
A/LM/AQM, OIG determined the following:


                                                18

                                        UNCLASSIFIED
                                               UNCLASSIFIED


            OES/EGC awards did not include language in the seven grants OIG reviewed that
             required recipients to submit performance reports that described achievements in
             terms of progress toward meeting indicators as well as goals and objectives.
            OES/EGC’s GORs did not notify the GO about changes to the terms and conditions
             of the grant agreement, which required an amendment to be executed for two of the
             seven grants OIG reviewed.
            OES/EGC’s GORs did not always obtain the final performance and financial reports
             from the respective recipients to ensure that final deliverables were achieved, funds
             were reconciled, and proper close-out of the project was completed for two of the
             seven grants OIG reviewed.

        The grants administration issues identified by OIG occurred for three primary reasons.
First, OES/EGC’s proposal submission instructions for grants “mention[ed]” the OES/EGC
indicators but did not include clear instructions for grantees to link their proposed activities to
indicators or report progress against indicators in their performance reports. Second,
OES/EGC’s GORs did not consistently follow relevant Department policies and procedures to
notify the GO of the need to amend an award. Third, OES/EGC’s GORs did not follow up to
ensure that recipients submitted all the required reports. As a result, OES/EGC’s climate change
program grants were not always efficiently and effectively administered to ensure the prudent
management of grantee performance, to ensure compliance with the terms of the grant
agreement, and to ensure that the goals and objectives of each grant award were achieved.

Language in Awards To Report by Indicator

        OES/EGC awards did not include language in the seven grants OIG reviewed that
required recipients to submit performance reports that described achievements in terms of
progress toward meeting indicators as well as goals and objectives. OES/EGC program officials
drafted a Standard Operating Procedures manual that detailed the eight phases of the program’s
life cycle18 and the key personnel responsible for or related to each phase. Phase four, the
procurement phase, consists of the OES/EGC program team’s sending a formal letter to the
intended recipient19 that includes grant proposal submission instructions. In these instructions,
OES/EGC requests that the intended recipients provide information in their proposals on how
their program will achieve its expected outcomes, and EGC indicators are listed; however, there
is no guidance regarding how to link and report program outcomes against these indicators.

       Further, OIG reviewed seven grants selected as part of the sample to determine what
language was included in the signed awards. Specifically, all seven awards included the
following, or similar, language, which states:


18
   As defined by OES/EGC, the eight phases of the program life cycle are Pre-Planning (Annual Budget Request);
Initial Program Planning (Budget Allocation); Program Notification and Development; Procurements;
Implementation, Monitoring, and Oversight; Formative Outcomes; Project Close-outs; and Summative Outcomes
and Evaluation.
19
   An OES/EGC official stated that current EGC grants are almost exclusively sole source and that these instructions
are for sole source solicitations and/or organizations with exclusive capability.

                                                        19

                                               UNCLASSIFIED
                                        UNCLASSIFIED

       [Performance] reports should be compiled according to the goals and objectives
       of the project as outlined in the proposal and statement of work provided in the
       grant. For each objective/goal, reports shall include:

              Significant activities of the period and how activities reflect progress
               toward achieving goals;
              Evaluation of progress on goals/objectives with quantitative and
               qualitative data, as appropriate;
              Any problems/challenges in implementing the program and a corrective
               action plan;
              Evaluation of accomplishments with quantitative information on goals to
               date as available;
              An update on expenditures during the quarter; and
              Supporting documentation or products related to project activities (such as
               articles, meeting lists and agendas, manuals, etc.).

        Since neither the grant proposal submission instructions nor the seven grant awards
themselves required the recipients to report their progress by indicator, OIG was unable to
directly link a recipient’s performance to the EGC indicators. For example, the recipient of
Grant S-LMAQM-08-GR-136 was not required to report by indicator but instead reported by
task. Therefore, no direct mention was made in the program status reports regarding whether the
indicators were met, and OIG therefore was unable to link completion of “tasks” to achievement
of “indicators.” In another example, for Grant S-LMAQM-08-GR-131, OIG determined that as
of the completion of the program and the submission of the final program summary report, the
grant recipient showed progress toward meeting goals and objectives by noting “Project
Milestones and Key Successes” and “Program Impact and Achievements.” However, OIG could
not verify or validate whether all nine indicators for this grant were fully accomplished because
the grant recipient did not report by indicator.

        By not requiring a recipient’s performance reports to report a program’s progress by
indicator, as well as by project outcomes and milestone achievements, OES/EGC program
officials may not be able to readily discern whether climate change indicators are being
achieved. OES/EGC will be able to better track how each program’s activities and outcomes
link to climate change indicators and ultimately how each program meets goals and objectives by
including language in its formal grant solicitation guidelines, as well as in all grant awards, that
requires recipients to submit performance reports that describe achievements in terms of progress
toward meeting indicators, as well as goals and objectives.

       Recommendation 7. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, update the language in its
       formal solicitation letters for grant awards, as well as the language in all formal grant
       awards, to include the requirement for all recipients to provide timely performance
       reports that describe achievements in terms of progress toward meeting indicators, as
       well as goals and objectives.


                                                20

                                        UNCLASSIFIED
                                            UNCLASSIFIED

        Management Response: OES concurred with the recommendation “to include language
        in the formal solicitation letters for timely performance reporting that describes
        achievements in terms of progress toward meeting the indicators, as well as goals and
        objectives.”

        OIG Reply: OIG considers the recommendation resolved, pending review and approval
        of documentation showing that the language in OES’s formal solicitation letters for grant
        awards and in all formal grant awards has been updated to include the requirement
        specified in the recommendation.

Securing Amendments for Grants

        OES/EGC’s GORs did not consistently notify the GO about changes to the terms and
conditions of the grant agreement, which required an amendment to be executed for two of the
grants reviewed as part of OIG’s sample. The Department’s GPD 28, “Roles and
Responsibilities for the Award and Administration of Federal Assistance,” Revision 1, dated
September 21, 2010, states that the GOR is to administer certain aspects of a specific assistance
agreement from the award through close-out. According to GPD 28, some of the GOR’s duties
include, but are not limited to, the following:

           Ensures compliance with all of the terms and conditions of the award.
           Notifies the GO promptly of any developments that could have a significant
            impact on the recipient’s performance.
           Prepares internal documents to support amendments to the award for the GO’s
            evaluation.
           Performs other duties as requested or delegated by the GO to ensure prudent
            management of recipients of assistance awards.

       Further, the Department’s publications regarding the Standard Terms and Conditions for
Assistance Awards20 state that written prior approval, by way of amendment, from the
Department’s GO is required for the following:

           Change in the scope or the objective of the project or program (even if there is
            no associated budget revision requiring prior written approval).
           Change in a key personnel specified in the application or award document.
           Extension of the period of performance [emphasis added].
           The transfer of funds among direct cost categories or programs, functions and
            activities for awards in which the Federal share of the project exceeds
            $100,000 and the cumulative amount of such transfers exceeds or is expected
            to exceed 10 percent of the total budget.



20
 Standard Terms and Conditions for Domestic Federal Assistance Awards, Oct. 1, 2009, and Standard Terms and
Conditions for Overseas Federal Assistance Awards, Oct. 1, 2009.

                                                     21

                                            UNCLASSIFIED
                                       UNCLASSIFIED


          Unless described in the application and funded in the approved award,
           the sub-award, transfer, or contracting out of any work under an award
           [emphasis added].

        In accordance with the standard terms and conditions, a recipient must submit all requests
in writing to the GOR before the project period end date indicated in the original award. If an
amendment is needed, the GOR brings this to the attention of the GO, and final approval of the
proposed change is subject to review and acceptance by the GO.

        During the review of the seven climate change grants in the sample, OIG found
amendments to the original agreement that were properly executed. For example, the recipient
for Grant S-LMAQM-08-GR-132 was unable to engage with a subcontractor to assist with the
workshop as originally proposed and requested that the funds allocated to the subcontractor be
reallocated to support other work. The GO agreed and signed Amendment 1 to recognize the
change in scope of work and reallocate the funds. However, OIG found two other instances in
which the GOR should have brought changes in scope of certain agreements to the attention of
the GO for proper modification. For example, 11 days before the original period of performance
was set to retire, the grantee for Grant S-LMAQM-08-CA-032 requested an extension to the
original period of performance. The OES/EGC GOR drafted a memorandum that recommended
that the GO approve a no-cost extension for 5 months, but there was no evidence that the GOR
had forwarded the request to the GO for approval and no evidence that the GO had signed an
amendment to the grant. However, the grantee continued to execute program tasks beyond the
end of the original grant date.

        In another instance, OIG reviewed Grant S-LMAQM-08-GR-136 for $963,572, which
did not identify that subcontractors would execute any part of the award activities in either the
award language or the original budget. However, in reviewing this grant’s performance, OIG
found payments made to subcontractors totaling approximately $209,000, or almost 22 percent
of the total award. Because the transfer of funds among direct cost categories and the
contracting out of any work under an award require the prior written approval of the GO, an
amendment to the original grant award should have been executed by the GO once the GOR
determined that the grantee was to engage with subcontractors. However, OIG found no
amendment to this award. This lack of an amendment occurred because OES/EGC did not have
procedures to ensure the implementation of GPD 28, which requires the GOR to notify the GO
of the changes to the terms and conditions of the award and prepare internal documents to
support amendments to the award for the GO’s evaluation. OIG confirmed this requirement with
the GO in A/LM/AQM, who stated that the recipient should have been required to submit a
revised budget and a copy of the sub-agreement for review and to wait for an amendment to be
issued before continuing with a subcontractor who was not accounted for in the original grant
agreement.

       The GOR is extremely important to the management and oversight of Federal grants by
ensuring the recipients’ compliance with all the terms and conditions of the award and notifying
the GO of any changes. It is imperative that the GOR promptly notify the GO of any changes to
the award to ensure compliance with the terms and conditions dictated in the award. Without

                                               22

                                       UNCLASSIFIED
                                        UNCLASSIFIED

prompt notification, OES/EGC cannot ensure that recipients of assistance awards are managed
prudently.

       Recommendation 8. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, utilize Grants Policy
       Directive 28, “Roles and Responsibilities for the Award and Administration of Federal
       Assistance” and the Standard Terms and Conditions for Domestic and Overseas Federal
       Assistance Awards to develop standard operating procedures that document
       responsibilities of the Grants Officer Representative for monitoring the terms and
       conditions of all grant awards and promptly notifying the Grants Officer (GO) of all
       changes that require the GO’s attention.

       Management Response: OES concurred with the recommendation.

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES/EGC has included, in its standard operating
       procedures, the responsibilities of the GOR for monitoring the terms and conditions of all
       grant awards and promptly notifying the GO of all changes that require the GO’s
       attention.

Proper Close-out of Grants

        OES/EGC’s GORs did not obtain, for two of the seven grants OIG reviewed, the final
performance and financial reports from the recipient to ensure that final deliverables were
achieved, funds were reconciled, and proper close-out of the project was completed. According
to the Department’s GPD 41, “Close-Out of Federal Assistance Awards,” Revision 1, dated
September 19, 2011, some of the close-out procedures include submission by the grant recipient
of final financial and program reports within 90 calendar days after the program period end date
and the de-obligation of excess funds. GPD 41 further states that the GOR should review the
final program report to ensure that the program was conducted and completed in accordance with
the objectives and goals of the award and provide the GO with a brief written evaluation of the
recipient’s performance before any close-out procedures are completed.

        While reviewing its sample of seven climate change program grants, OIG noted two
projects that may not have been closed out properly. For Grant S-LMAQM-08-GR-136, the
period of performance ended on September 30, 2010, and the program status report dated that
same day stated that there were three “final reports pending” for the award. However, the
grantee was provided its final payment, which posted on September 17, 2010, for this award.
Further, OIG was unable to determine whether these three pending reports had been submitted to
the Department, and an e-mail dated March 10, 2011, confirmed that final programmatic and
financial reporting, which was due on December 31, 2010, had not yet been submitted by the
grantee. OIG was unable to locate a final program report for this award in the grant files.

        In addition to obtaining the final reports from the recipient, the de-obligation of excess
funds is also a critical step at the end of the close-out process. OIG reviewed documentation for


                                                23

                                        UNCLASSIFIED
                                        UNCLASSIFIED

Grant S-LMAQM-08-CA-012, which showed that the program had been completed in
August 2010 and that final program reports had been submitted in November 2010. Those
reports showed that the recipient did not use all of its funds, specifically $38,128. On
February 28, 2011, the GOR was told via e-mail by another OES official that the grantee would
need to submit a new, final Federal Financial Report for the balance to be de-obligated.
However, as of April 15, 2011, it was unclear as to whether this additional report had been
obtained by the GOR. OIG was also unable to determine whether the GOR had provided the
appropriate information to the GO to properly close out this award.

        Without OES/EGC’s GORs obtaining the final performance and financial reports for
review and submission to the GO for proper close-out, the question of whether the program was
conducted and completed in accordance with the objectives and goals of the award may not be
able to be answered. The close-out procedure is the critical final step in the award’s life cycle,
and when all actions of a proper close-out are taken in a timely manner, the Department’s overall
financial management is positively affected, to include the de-obligation and potential re-use of
excess, unexpired funds, and OES/EGC can better ensure that the funds have been spent
accordingly and the goals and objectives of the grant award have been achieved.

       Recommendation 9. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, develop procedures to
       ensure that the final reports of a recipient are obtained and reviewed by the Grants
       Officer Representative for proper close-out of the project and that these documents are
       submitted in a timely manner to the Grants Officer for final review and close-out.

       Management Response: OES concurred with the recommendation, stating that it will
       “formally include a summary of the timely process and expectations for closeout in
       EGC’s standard operating procedures.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has formally included, in its standard operating
       procedures, information showing that the final reports of a recipient have been obtained
       and reviewed by the GOR for proper close-out of the project and that these documents
       have been submitted in a timely manner to the GO for final review and close-out.

Finding D. Improvements Needed for Comprehensive Monitoring of Climate
Change Interagency Acquisition Agreements
        OIG identified four areas in which the monitoring of interagency agreements should be
strengthened. Specifically, OES/EGC should (1) assign qualified CORs for all interagency
acquisition agreements, (2) require the adequate review and substantiation of performance and
financial reports, (3) require the timely submission of required reports from the recipient, and (4)
perform site visits to validate recipient performance. These monitoring requirements were
lacking because relevant Department policies and procedures were not consistently implemented
by OES/EGC program officials. For example, none of the recipients of the five interagency
acquisition agreements OIG reviewed submitted the required performance and financial reports

                                                24

                                        UNCLASSIFIED
                                              UNCLASSIFIED

necessary for effective program monitoring in a timely manner. Without comprehensive
monitoring of interagency agreements, OES/EGC might not have reasonable assurance that
Federal funds were spent in accordance with the agreement, that the recipient performed project
activities as dictated in the agreement, and that program goals and objectives were achieved.

Designation of Contracting Officer’s Representatives

         OIG reviewed five interagency acquisition agreements as part of its sample and found no
evidence that OES/EGC had designated a COR for four of the agreements that began after
April 14, 2008, as required by the State First Policy.21 The Department’s State First Policy states
that all 632(b) interagency acquisition agreements entered into subsequent to April 14, 2008,
should have a COR designated by the requesting bureau. Further, the Department’s FAH
(14 FAH-2) contains the “Contracting Officer’s Representative Handbook,” which clearly details
the COR’s responsibilities for contract administration and monitoring of contractor performance.

        Specifically, according to the Handbook, the COR is responsible for ensuring that the
contractor accomplishes the technical and financial aspects of the contract because unsatisfactory
performance may jeopardize a project or even an entire program. The Handbook describes
specific contract monitoring duties that include, but are not limited to, the following:

            The COR must ensure that the contractor complies with reporting provisions that are
             in the contract.
            If a contract is large and complex, the COR should conduct site visits to check
             contractor performance.
            If the contract requires review of vouchers or invoices, the COR should review them
             to determine the validity of costs claimed and relate total expenditures to the physical
             progress of the contract.
            The COR is responsible for developing quality assurance procedures, verifying
             whether the supplies or services conform to contract quality requirements, and
             maintaining quality assurance records.
            The COR is responsible for determining that the work is complete and conforms to
             the technical requirements of the contract and must ensure that the work performed
             under the contract is measured against the performance work statement.

        Department of State Acquisition Regulations (DOSAR)22 establish Department policy
and procedures on the appointment of CORs and state that when a COR is nominated, the CO
“shall prepare an appointment memorandum to outline the scope of the COR’s authority,
including duties, responsibilities, and prohibitions.” In addition, the Federal Acquisition
Regulation (FAR) 23 states that a COR must be a Government employee, unless otherwise


21
   The Department’s State First Policy was issued in 2002 to ensure that bureaus made sound business decisions on
how to acquire needed goods and services and was updated on April 14, 2008, to also apply to transfers under
sec. 632(b) of the Foreign Assistance Act of 1961, as amended.
22
   DOSAR §§ 642.270(a) and 642.270(f)(2).
23
   FAR § 1.602-2(d)(1).

                                                       25

                                              UNCLASSIFIED
                                           UNCLASSIFIED

authorized in agency regulations. In turn, the DOSAR24 states that only Department
employees—defined as direct-hire employees, those hired under personal services agreements,
and those serving under personal services contracts—who have completed adequate training and
have the necessary experience and judgment can be appointed as CORs. The formal training
requirement25 includes 40 hours of Foreign Service Institute-approved COR training courses
prior to appointment as a COR.

        Without trained CORs who are designated to ensure comprehensive monitoring of
interagency agreements, OES/EGC might not have reasonable assurance that the monitoring
duties that would normally be carried out by a COR are, in fact, being performed. Specifically,
OES/EGC might not be able to support whether Federal funds were spent in accordance with the
agreement, that the recipient performed project activities as dictated in the agreement, and that
program goals and objectives were achieved.

          Recommendation 10. OIG recommends that the Bureau of Oceans and International
          Environmental and Scientific Affairs formally designate qualified and trained contracting
          officer’s representatives for all interagency acquisition agreements in accordance with the
          Department’s State First Policy and Department of State Acquisition Regulations,
          Part 642, who are knowledgeable of the monitoring and oversight duties established in
          the Department’s Contracting Officer’s Representative Handbook.

          Management Response: OES concurred with the recommendation, stating that it had
          designated a COR in response to an AQM “request made as part of the State First Waiver
          requirement in August 2011.”

          OIG Reply: OIG considers the recommendation resolved, pending review and approval
          of documentation showing that OES has procedures to formally designate qualified and
          trained CORs for all interagency acquisition agreements in accordance with the
          Department’s State First Policy and the DOSAR. The CORs should also be
          knowledgeable of the monitoring and oversight duties established in the Contracting
          Officer’s Representative Handbook.

Substantiation of Performance and Financial Reports

        OIG was unable to fully substantiate the performance and financial reports for the five
climate change interagency acquisition agreements sampled and could only verify expenditures
related to travel costs. OIG was not provided any supporting documentation that could be
substantiated for the majority of the recipients’ expenditures.




24
     DOSAR §§ 642.270(b) and 642.270(c).
25
     DOSAR § 642.270(d).

                                                  26

                                           UNCLASSIFIED
                                         UNCLASSIFIED


       Performance Reports

        The Federal Assistance Policy Handbook addresses the importance of reviewing
performance and financial reports and advises that the failure to read the reports in a timely
manner can diminish or destroy their value. It also addresses, as does the Contracting Officer’s
Representative Handbook, the importance of periodically taking steps to verify the information
contained in the reports by requesting copies of drafts, texts, designs, or other data that should be
in existence if work is proceeding according to plan, and it states that doing so can guard against
accepting and approving reports that show more progress than has actually been achieved.

        OIG found limited evidence that OES/EGC officials, during their reviews of recipient
performance reports for the five interagency acquisition agreements in OIG’s sample, had
requested or reviewed supporting documentation to substantiate assertions made in the reports.
For example, for Agreement S-OES-07-IAA-0018, OIG noted discrepancies in results reported
by the recipient for one of the sub-projects under this agreement. Specifically, the performance
reports submitted in June 2010 and September 2010 had overstated the number of trained
individuals by including participants who had already been accounted for in prior performance
reports. Additionally, the recipient stated that the targets of 400 and 600 trained individuals were
met, respectively, during FY 2008 and FY 2009; however, based on OIG’s review of supporting
documentation received from the recipient, OIG determined that the training targets were not
actually met until FY 2010.

        In a review of another agreement, No. S-OES-09-IAA-0016, dated August 11, 2009, OIG
noted that a target to train 250 individuals had been established. This program was completed as
of September 30, 2011, and the performance report submitted by the recipient on August 5,
2011, stated that two training events had been held. After OIG reviewed the documentation
provided in support of those results, OIG was able to identify 85 participants who had been
trained vice the target of 250. OIG did not find evidence to support that information regarding
the actual number of participants had been conveyed to or reconciled by OES/EGC to the target
established in the agreement.

       Financial Reports

       The Contracting Officer’s Representative Handbook states that financial status reports
provide a means of monitoring expenditures and comparing costs incurred with technical
progress. The Federal Assistance Policy Handbook also advises that checking receipts or other
documentation for expenditures is an effective way to ensure that only items authorized under
the award terms have been purchased and charged to the project.

       OIG’s analysis of Agreement S-OES-07-IAA-0018 found that the recipient recorded
more than $2.5 million in expenditures to five major subcontractors between October 2008 and
December 2011. However, when asked to provide supporting documentation to validate the
expenditures, the recipient was able to provide OIG only payment requests from the
subcontractors. OIG received no documentation to verify the expenses claimed or ensure that
only authorized expenditures were charged to the project. A second interagency acquisition

                                                 27

                                         UNCLASSIFIED
                                       UNCLASSIFIED

agreement, No. S-OES-09-IAA-0016, also recorded expenditures of nearly $896,000, primarily
for subcontractor labor for one sub-project of the agreement. Again, OIG was not provided any
supporting documentation, such as timesheets or payroll records, to validate the expenses.
Additionally, another sub-project was completed under this agreement for a total of $250,000;
however, the recipient did not document any of the expenditures related to this sub-project in the
financial records provided to the audit team.

        OIG determined that OES/EGC’s ability to verify and validate the use of its funds by
interagency acquisition agreement recipients was limited. Without appropriate review and
documentation of performance and financial reports submitted by the funds recipients, OES/EGC
did not always have reasonable assurance that program goals and objectives were met or that
activities were performed as dictated in the agreement. By more systematically reviewing
performance reports and requesting substantiating documentation as appropriate to verify the
information contained in the reports, OES/EGC could better ensure that progress was made in
accomplishing agreed-upon tasks, including progress by fiscal year toward meeting goals,
objectives, and indicators. OES/EGC could also guard against accepting and approving reports
that indicated more progress than had actually been achieved. Further, reviewing financial
reports and supporting documentation would ensure that only items authorized under the award
terms and conditions had been purchased and charged to the agreement.

       Recommendation 11. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, request and review
       performance and financial supporting documentation as advised by the Federal
       Assistance Policy Handbook to substantiate the information contained in the required
       reports received from interagency acquisition agreement recipients and that it maintain
       appropriate documentation of those reviews.

       Management Response: OES concurred with the recommendation.

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has procedures to request, review, and maintain
       performance and financial supporting documentation as advised by the Federal
       Assistance Policy Handbook to substantiate the information contained in the required
       reports received from interagency acquisition agreement recipients.

Timeliness of Reports by the Recipient

        Of the five interagency acquisition agreements selected for review, OIG found that none
of the recipients of the agreements had been timely in filing the required reports and found no
evidence that OES/EGC had any procedures in place documenting the steps to be taken in the
event of noncompliance with reporting requirements.

        The Federal Assistance Policy Handbook states that, similar to an acquisition contract,
“the servicing agency reports to the requesting agency as specified in the IAA [interagency
agreement].” As such, the agreements entered into by OES/EGC obligated recipients to meet


                                                28

                                       UNCLASSIFIED
                                        UNCLASSIFIED

certain reporting requirements, both performance and financial. In general, the reporting
requirements in each of the five interagency acquisition agreements OIG reviewed stated that the
servicing agency would, at a minimum, provide OES/EGC the following:

          Performance Reports – These reports are due on a semiannual basis and should
           include a performance analysis that describes activities undertaken and achievements
           in terms of progress toward the program objective and compliance with the schedule
           of performance and milestones presented in the statement of work.
          Financial Reports – These reports are due annually (in one agreement OIG reviewed,
           the reports were due on a semiannual basis) and should include actual costs incurred
           by budget category.

        Under Agreement S-OES-07-IAA-0018, OES/EGC and the recipient had different
records of reports submitted for four of the sub-projects under this agreement. OES/EGC
officials acknowledged the delays in receiving required reports from the recipient and stated that
they had addressed the issue with the recipient. However, OIG found no evidence that
OES/EGC had had any repercussions because of the noncompliance.

        In another example, Agreement S-OES-09-IAA-0016, OIG found that the recipient had
divided the total funding among three sub-projects. At the time of OIG’s review, OIG found that
two of the sub-projects had been completed; however, the recipient had submitted only
performance and financial reports for one of the two completed projects, which was completed
on September 30, 2011. OIG did not find any evidence that OES/EGC had received any
progress or financial updates for the second completed project, even though the project was
complete and all the funds had been expended. There was no evidence that OES/EGC had
followed up on the matter or whether there were any repercussions because of the
noncompliance.

        In yet a third example, OIG found that one of the sub-projects under Agreement S-OES-
07-IAA-0018 had transferred $600,000 in Economic Support Funds to USAID in order to
provide loan guarantees to local financial institutions via USAID’s Development Credit
Authority program. To that end, two Transfer Apportionment Requests were processed through
and approved by the Office of Management and Budget (OMB) in July 2009 and August 2010,
respectively, to allow USAID to transfer the $600,000 in Economic Support Funds to its
Development Credit Authority program. However, OIG determined that the Transfer
Apportionment Requests had, in fact, transferred Development Assistance funds and not
Economic Support Funds to Development Credit Authority funds.

        OIG determined that there were no financial reports submitted over the life of this sub-
project and that the last performance report submitted, on September 30, 2009, did not mention
the reapportionment of funds. The first record OIG found of USAID’s conveying this
information to OES/EGC was via e-mail in February 2011. OIG, along with OES/EGC,
attempted to contact relevant USAID and Department personnel on numerous occasions to find
out why Development Assistance funds were transferred instead of Economic Support Funds and


                                                29

                                        UNCLASSIFIED
                                       UNCLASSIFIED

the ultimate disposition of the $600,000 in Economic Support Funds awarded to USAID by
OES/EGC. As of March 2012, neither OIG nor OES/EGC had received a satisfactory response
from USAID resolving this issue.

       In not ensuring the timely submission of performance and financial reports by
interagency acquisition agreement recipients or by not having standard operating procedures for
followup and repercussions because of noncompliance, OES/EGC did not have reasonable
assurance that program activities were being performed as dictated in the agreement or that
Federal funds were being spent in an appropriate manner. Specifically, without the timely
submission of performance reports from USAID or appropriate followup by OES/EGC,
OES/EGC was unable to address the Development Credit Authority funds transfer promptly and
was not able to account for $600,000 in Department funds.

       Recommendation 12. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change (OES/EGC), develop
       appropriate standard operating procedures to ensure that reporting requirements are met
       by interagency acquisition agreement recipients and, if they are not, that appropriate steps
       are taken to address delinquent reporting. Also, OES should coordinate with the Office
       of U.S. Foreign Assistance Resources to properly account for the $600,000 in Economic
       Support Funds transferred to the U.S. Agency for International Development and, if
       determined appropriate, work to return the funds to the Department of State for
       appropriate use or de-obligation.

       Management Response: OES concurred with the recommendation, stating that it “will
       illuminate in standard operating procedures the process for encouraging IAA [interagency
       acquisition agreement] reporting compliance by recipients and indicate subsequent steps
       to address delinquent reporting.” OES also stated that it will coordinate with the Office
       of U.S. Foreign Assistance Resources “to discern the ultimate disposition of the $600,000
       in Economic Support Funds transferred” to USAID and “bring this matter to a close.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has procedures to ensure that reporting requirements
       are met by interagency acquisition agreement recipients and, if they are not, that
       appropriate steps are taken to address delinquent reporting.

       Also, OES should coordinate with the Office of U.S. Foreign Assistance Resources to
       properly account for the $600,000 in Economic Support Funds transferred to USAID and,
       if determined appropriate, work to return the funds to the Department for appropriate use
       or de-obligation.

Performance and Documentation of Site Visits

      OIG determined that OES/EGC had conducted only one site visit for climate change
programs administered via interagency acquisition agreements and that the site visit had been
conducted in September 2008. During the visit, an OES/EGC project official visited personnel


                                               30

                                       UNCLASSIFIED
                                        UNCLASSIFIED

associated with two agreements, one of which contained six sub-projects, and documented the
results of the review in a trip report. OIG reviewed three of the sub-projects within one of those
agreements as part of its sample and noted that OES/EGC had not completed the in-depth review
as prescribed in the Department’s Contracting Officer’s Representative and Federal Assistance
Policy Handbook during the site visit. For example, the report typically summarized meetings
held with agency officials; contractors implementing projects for USAID; and, in some cases, the
Indian partners associated with USAID projects. The site visit, however, did not include a
review of receipts or other documentation for expenditures to substantiate financial progress or a
review of documentation that supported performance reports submitted to OES/EGC and that
served as evidence that activities had occurred.

        In addition to substantiating program performance information provided by interagency
acquisition agreement recipients, adequate monitoring should also include site visits by
OES/EGC. The Contracting Officer’s Representative Handbook states that site visits can be
used to check actual against reported performance, inspect facilities and working conditions, and
verify that personnel are actually performing work under the agreement. The Federal Assistance
Policy Handbook also states that site visits are an important method for effective Federal
assistance management, providing the Department an opportunity to provide technical assistance
and substantiate financial progress and compliance with laws, regulations, and policies, and that
the visits should be documented in a file memorandum.

        Since the site visit in September 2008, OES/EGC had not, as of March 2012, conducted
any other site visits of recipients that received funds through interagency acquisition agreements
for the sample of agreements reviewed. In fact, one program official for one recipient in OIG’s
sample stated that, in general, OES/EGC staff was very “hands off” when it came to their
involvement in program activities. Without active monitoring through site visits, especially for
those recipients considered “high-risk,” OES/EGC may not have reasonable assurance that actual
performance and results are consistent with stated goals and objectives.

       Recommendation 13. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, implement the guidance
       provided in the Department of State’s Foreign Affairs Handbook and the Contracting
       Officer’s Representative Handbook and require contracting officer’s representatives to
       perform site visits for each interagency agreement recipient at least once during the life of
       the agreement or once a year for those recipients identified as “high risk.”

       Management Response: OES concurred with the recommendation “to perform site visits
       with recipients at least once during the life of an interagency agreement or once a year for
       high risk recipients.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that OES has implemented procedures requiring the COR to
       perform site visits for each interagency agreement recipient at least once during the life of
       the agreement or once a year for those recipients identified as “high risk.”



                                                31

                                        UNCLASSIFIED
                                       UNCLASSIFIED


Finding E. Improvements Needed for the Effective and Efficient
Administration of Climate Change Interagency Acquisition Agreements
      Based on its review of five interagency acquisition agreements administered by
OES/EGC for selected climate change programs and review of pertinent Department policies,
OIG found the following:

          OES/EGC did not obtain waivers in advance to ensure that an interagency acquisition
           agreement was the best procurement approach for OES and the Department.
          OES/EGC agreements did not include language that required recipients to submit
           performance reports that described achievements in terms of progress toward meeting
           indicators, as well as goals and objectives.
          OES/EGC agreements did not include language that required recipients to maintain
           supporting documentation for financial expenditures and all pertinent achievements
           for purposes of substantiation.

        The administration issues identified by OIG occurred for three primary reasons. First,
OES/EGC did not follow the conditions of the State First Policy to obtain waivers before paying
another agency to conduct an acquisition on behalf of the Department. Second, OES/EGC
guidelines for the submission of technical scopes of work for interagency acquisition agreements
‘‘mention[ed]” the OES/EGC indicators but did not include clear instructions for recipients to
link their proposed activities to indicators or report progress against indicators in their
performance reports. Third, OES/EGC did not implement requirements of the Federal
Assistance Policy Handbook and the Contracting Officer’s Representative to periodically verify
information contained in recipient reports by requesting supporting documentation. As a result,
interagency acquisition agreements within OES/EGC might not be efficiently and effectively
administered to ensure that recipients’ performance was prudently managed and that the goals
and objectives of the agreements were achieved.

Implementation of State First Policy

        OIG determined that OES/EGC did not obtain waivers in advance to ensure that an
interagency acquisition agreement was the best procurement approach for OES and the
Department as required by the State First Policy as of April 14, 2008. The policy requires
domestic offices to first request the services of A/LM/AQM for their contracting needs or receive
a State First Waiver from A/LM/AQM before paying another agency to conduct an acquisition
on behalf of the Department. The policy further states that reviewers of the waiver request will
determine whether Department resources can best provide the services needed or whether the
other agency offers better contract pricing, unique agency expertise, or other advantages.

       Part of the information provided in the waiver request for consideration by the reviewers
would be the amount of the surcharge applied by the proposed servicing agency. For instance, as
of November 8, 2008, USAID has been charging a General and Administrative Support
Overhead Rate of 23.7 percent for all interagency agreements, including those agreements
administered under Section 632(b) of the Foreign Assistance Act of 1961, as amended. It would

                                               32

                                       UNCLASSIFIED
                                       UNCLASSIFIED

be the reviewer’s responsibility to determine whether a fee or surcharge, at any rate, would be
reasonable and whether executing the agreement would represent the best value and interests of
the Department.

        Of the five interagency acquisition agreements reviewed, OIG determined that four were
executed 5 months or more after the State First Policy had been updated. OIG did not find any
evidence that OES/EGC had obtained State First Waivers for any of those four agreements. One
particularly significant example was Agreement S-OES-10-IAA-0016, which was signed by the
OES Executive Director on August 13, 2010, and the USAID/India Mission Director on
August 19, 2010, more than 2 years after the updated State First Policy had been issued. The
total amount of the agreement, after two modifications, totaled $10.5 million. Of the
$10.5 million, approximately $2.0 million was the USAID General and Administrative Support
Overhead Fee, calculated at 23.7 percent of the total project budget. As a result, only
approximately $8.5 million of the total was budgeted toward the execution of the program, and
there was no waiver for this agreement to indicate that the appropriate review and approval
process had been conducted to determine that this approach provided the best value for the
Government.

       OIG concluded, based on its review of the agreements within its sample, that if State First
Waivers were not obtained as required, neither OES nor the Department could have reasonable
assurance that utilizing an interagency acquisition agreement provided the best overall approach
to executing climate change programs and was in the best interest of the Department.

       Recommendation 14. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs obtain State First Waivers for all future interagency
       agreements and maintain approved waivers in its files, as required by State First Policy.

       Management Response: OES concurred with the recommendation.

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that the procedures specified in the recommendation have
       been implemented and the approved waivers are being maintained in OES’s files.

Language in Agreements to Report by Indicator

        OES interagency acquisition agreements did not include language that required recipients
to submit performance reports that described achievements in terms of progress toward meeting
indicators, as well as goals and objectives. OES/EGC program officials drafted a Standard
Operating Procedures manual that detailed the eight phases of the program life cycle (see section
“Language in Awards to Report by Indicator” in Finding C) and the key personnel responsible
for or related to each phase.

       Phase four, the procurement phase, consists of the OES/EGC program team’s sending a
formal letter to the intended recipient that includes EGC guidelines for the submission of
technical scopes of work for interagency acquisition agreements. In this letter, OES/EGC


                                               33

                                       UNCLASSIFIED
                                        UNCLASSIFIED

requests that servicing agencies provide information in their scopes of work for how the project
will link to one or more of the EGC indicators, as well as additional outcomes for the project.
The instructions also note that servicing agencies will be required to report “project outcomes
and milestone achievements” in the semiannual and final programmatic performance reports
required under the agreements.

        The five interagency acquisition agreements OIG reviewed revealed that all five
agreements included, in their scopes of work, information on how their particular projects linked
to applicable indicators, as well as language to denote the recipients’ reporting requirements.
Specifically, all five agreements included the following, or similar, language with regard to
reporting:

       The servicing agency, as a minimum, shall provide the Department of State
       with . . . performance reports . . . that shall include a performance analysis that
       describes activities undertaken and achievements in terms of progress toward
       the program objective and compliance with the schedule of performance and
       milestones presented in [the scope of work]. The Department of State may
       request that the servicing agency use a specific reporting template. This report
       will be due semi-annually (every six months) on April 30 and October 31, until
       completion of the period of performance.

         While each agreement’s scope of work included the information requested by OES/EGC
in its formal solicitation letter, OIG determined that by not requiring a recipient’s performance
reports to report a program’s progress by indicator, as well as by project outcomes and milestone
achievements, OES/EGC program officials may not be able to readily discern whether climate
change indicators are met. OES/EGC will be able to better track how each program’s activities
and outcomes link to climate change indicators and ultimately how they meet goals and
objectives by including language in its formal solicitation guidelines, as well as in all
agreements, that requires recipients to submit performance reports that describe achievements in
terms of progress toward meeting indicators, as well as goals and objectives.

       Recommendation 15. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, update the language in its
       formal solicitation letters for interagency agreements, as well as the language in all
       formal interagency agreements, to include the requirement for all recipients to provide
       timely performance reports that describe achievements in terms of progress toward
       meeting indicators, as well as goals and objectives.

       Management Response: OES concurred with the recommendation, stating that it will
       “include [the updated language] in the formal solicitation letters for interagency
       agreements.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that updated language has been included in OES’s formal
       solicitation letters for interagency agreements and in all formal interagency agreements,


                                                34

                                        UNCLASSIFIED
                                       UNCLASSIFIED

       including the requirement for all recipients to provide timely performance reports that
       describe achievements in terms of progress toward meeting indicators and goals and
       objectives.

Language in Agreements To Maintain Supporting Documentation

        OES interagency acquisition agreements did not include language that required recipients
to maintain supporting documentation for financial expenditures and all pertinent achievements
for purposes of substantiation. OIG was unable to verify the information in the recipients’
performance and financial reports because supporting documentation maintained by the
recipients was either inconsistent or incomplete. Recipients were not required by the terms and
conditions of the interagency acquisition agreement to maintain supporting documentation
because OES/EGC did not implement requirements in the Federal Assistance Policy Handbook
and the Contracting Officer’s Representative Handbook to periodically verify information
contained in recipient reports. Examples of supporting documentation or products related to
project activities to substantiate information submitted in performance reports would include
articles, meeting lists and agendas, manuals, drafts, texts, designs, or other data. Examples of
supporting documentation to substantiate financial expenditures noted in financial reports would
include invoices, receipts, time and attendance reports, travel costs, or other financial support.

        The monitoring of interagency acquisition agreements is important to ensure compliance
with the terms and conditions of the agreement, financial and program reporting requirements,
and timely implementation of project activities. Equally important, the full implementation of
Department policies to periodically verify the information contained in the recipients’
performance and financial reports safeguards against acceptance and approval of reports that
indicate more progress than was actually achieved and ensures that only items authorized under
the agreement have been purchased and charged to the program.

       While other Federal agencies should not need to be reminded of the importance of
maintaining supporting documentation, OES/EGC’s CORs will be better prepared to properly
monitor the financial progress and programmatic performance of the agreements if specific
language is included in all interagency agreements that requires recipients to maintain supporting
documentation for financial expenditures and all pertinent achievements for purposes of
substantiation. This should ultimately enable OES/EGC to ensure that Department funds are
being spent judiciously and that program indicators, goals, and objectives are being achieved.

       Recommendation 16. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, Office of Global Change, update the language in its
       formal solicitation letters for interagency agreements, as well as the language in all
       formal interagency agreements, to include, for purposes of substantiation, the
       requirement for all recipients to maintain supporting documentation for all financial
       expenditures and all project activities and pertinent achievements as reported in the
       recipients’ performance and financial reports.

       Management Response: OES concurred with the recommendation.


                                               35

                                       UNCLASSIFIED
                                          UNCLASSIFIED



        OIG Reply: OIG considers the recommendation resolved, pending review and approval
        of documentation showing that language in OES’s formal solicitation letters for
        interagency agreements and in all formal interagency agreements has been updated,
        including, for purposes of substantiation, the requirement for all recipients to maintain
        supporting documentation for all financial expenditures, project activities, and pertinent
        achievements as reported in the recipients’ performance and financial reports.

Finding F. Greater Management Attention Needed for the Application and
Administration of Interagency Transfers
         OIG determined, based on its review of a sample of interagency acquisition agreements
administered by OES/EGC for climate change programs, review of pertinent Federal regulations
and Department policies, and discussions with officials from A/OPE and A/LM/AQM, that OES
did not consistently administer interagency acquisition agreements in accordance with pertinent
Federal policies. A/LM/AQM officials stated that this issue occurred because there were no
standardized policies and procedures governing the execution of agreements by OES and other
Department bureaus to ensure compliance with Federal policies. Also, A/LM/AQM officials
stated that the Department lacks standardized policies and procedures for reviewing and
approving agreements to ensure compliance with Federal and Department requirements. As a
result, interagency agreements executed by OES–and possibly other Department bureaus–may
not be efficiently and effectively administered and managed in the areas of policy application,
review and approval, and overall program management.

Interagency Acquisition Agreements Versus Interagency Agreements

        Federal regulations state that there are distinct differences between interagency
acquisition agreements and interagency agreements and policies governing their use.
Specifically, the Federal Register, FAR Case 2008-032, “Preventing Abuse of Interagency
Contracts,” effective February 2, 2012, stated: “[While] interagency acquisitions may be a
product of interagency agreements; the two are not the same. An interagency agreement
whereby a servicing agency performs work using its own resources is not considered an
interagency acquisition under the FAR.” In contrast, OMB guidance,26 the memorandum
entitled “Improving the Management and Use of Interagency Acquisitions,” states that an
“[i]nteragency acquisition is the term used to describe the process by which one agency
(requesting agency), uses the contracts and/or contracting services of other agencies (servicing
agencies) to obtain supplies and services.” (Information on Federal policies governing
interagency acquisition agreements and interagency agreements is in Appendix B.)




26
 Memorandum for Chief Acquisition Officers, Senior Procurement Executives, “Improving the Management and
Use of Interagency Acquisitions,” OMB, June 6, 2008, p.1.

                                                   36

                                          UNCLASSIFIED
                                       UNCLASSIFIED


Compliance of OES Interagency Acquisition Agreements With Pertinent Policies

        OIG determined that OES did not consistently administer interagency acquisition
agreements in accordance with pertinent Federal policies. Specifically, all five interagency
acquisition agreements OIG reviewed declared the implementers of the agreements and project
activities to be the servicing agency. For example, Agreement S-OES-10-IAA-0016 with
USAID contained the following language in the agreement and statement of work:

       The Servicing Agency will use funds provided by means of this Agreement to
       carry out the activities described in the Statement of Work. Through this
       agreement, the Servicing Agency will implement several project components . . .
       This agreement [also] permits expenditures of funds through grants, sub-grants,
       contracts, or subcontracts for purposes set forth in the Statement of Work.

       Under [this agreement], USAID will partner at the Federal level with the Ministry
       of Power (MOP) on the Energy Efficiency Technology Commercialization and
       Innovation (EE/TC&I) Project, and with the Ministry of New and Renewable
       Energy (MNRE) on the New and Renewable Energy Technology
       Commercialization and Innovation Project (RE/TC&I), to support implementation
       of national programs.

        By directing the implementers of the agreements and project activities to be the servicing
agency, OES essentially declared that the servicing agency (in this case, USAID) will perform
the work under the agreement using its own resources vice transferring the work via contract.
Further, although there was language in the agreement that stated it permitted “expenditures of
funds through grants, sub-grants, contracts, or subcontracts for purposes set forth in the
Statement of Work,” there was no clear indication in the statement of work (or the proposed
budget) that the sole purpose of the agreement was for USAID to utilize existing contracts or
contracting services to carry out the program objectives. The agreement and statement of work,
as written, did not reflect an interagency acquisition agreement as defined by Federal regulations
and therefore should have been treated as an interagency agreement.

Department Policies and Procedures for Interagency Acquisition Agreements

      OIG reviewed applicable Department policies governing interagency acquisition
agreements. Specifically, the State First Policy states the following:

          Domestic offices will first request the services of A/LM/AQM for their
           contracting needs or receive a waiver from AQM before paying another
           agency to conduct an acquisition on behalf of the Department [emphasis
           added].
          If acquisition by another agency is approved, A/LM/AQM will work with
           the requester to prepare an interagency acquisition agreement to transfer
           funding and requirements [emphasis added].



                                                37

                                       UNCLASSIFIED
                                       UNCLASSIFIED

        The State First Policy is clearly written to apply to interagency acquisition agreements,
which the OMB June 2008 memorandum defines as the process by which one agency (requesting
agency) uses the contracts and/or contracting services of other agencies (servicing agencies) to
obtain supplies and services. OIG has no issue with how the State First Policy is written for
applicability to interagency acquisition agreements, but OIG believes that the State First Policy
represents sound business practices for any interagency agreement and therefore should be
clarified to establish that the requirements in the State First Policy also apply to interagency
agreements.

Discussions With Department Officials About Standardized Policies and Procedures

       During OIG discussions with A/LM/AQM and A/OPE officials in February and March
2012, A/LM/AQM officials stated that there were no standardized policies and procedures
governing the execution of agreements by OES and other Department bureaus to ensure
compliance with Federal policies and no standardized policies and procedures for reviewing and
approving agreements to ensure compliance with Federal and Department requirements.
Specifically, during multiple meetings with officials from A/OPE and A/LM/AQM to determine
the appropriate Department policies and procedures for administering interagency acquisition
agreements versus interagency agreements, A/LM/AQM officials brought the following
information to OIG’s attention:

          Department bureaus execute interagency acquisition agreements and interagency
           agreements differently. One A/LM/AQM official stated that even OES and the
           Bureau of Democracy, Human Rights and Labor (both of which share the same
           Executive Director) execute interagency acquisition agreements in a different manner.
           However, another A/LM/AQM official stated that the Bureau of Diplomatic Security
           was appropriately using the standardized form for the reimbursable types of
           interagency agreements. (Policies governing interagency agreements are in
           Appendix B.)

          There is no standardized process for how A/LM/AQM officials should review and
           approve any type of interagency agreement. For example, an A/LM/AQM official
           stated that A/LM/AQM officials do not review budgets for interagency agreements
           and that most agreements come through A/LM/AQM with no budget breakdown of
           overhead costs/fees. Therefore, according to the official, A/LM/AQM has no insight
           into whether the agreements are in the best interests of the Department.

        The A/LM/AQM official stated that it would be beneficial for A/OPE to provide clear
policy and guidance for the entire interagency agreement process to ensure that the Department
complies with applicable Federal and Department policies. The Procurement Executive, A/OPE,
stated that if future discussions between OIG representatives and A/LM/AQM officials generated
concerns for the overall administration of interagency agreements, he would ensure that those
concerns were addressed properly.




                                               38

                                       UNCLASSIFIED
                                       UNCLASSIFIED


Conclusion

         Based on its review of agreements within its sample and discussions with A/LM/AQM
officials, OIG concluded that the concerns generated by its reviews of OES interagency
acquisition agreements may signify a Department-wide shortcoming, as interagency agreements
may not be efficiently and effectively administered and managed in the areas of policy
application, review and approval, and overall program management. Although OIG did not have
an opportunity to review the implementation of interagency acquisition agreements or
interagency agreements by other Department bureaus, OIG determined that interagency
transactions are a significant part of the Department’s expenditures, as the Department
transferred approximately $2.3 billion to other agencies during both FY 2010 and FY 2011, for a
total of approximately $4.6 billion. (Department intra-Governmental expenses transferred in
FY 2010 and FY 2011 are listed in Appendix C.) Because of the significant amount of dollars
transferred to other agencies annually, OIG decided to expand the recommendations in this
report to include solutions that may potentially impact policies and procedures Department-wide
and ensure that all Department officials are aware of the requirements for both types of
agreements.

       Recommendation 17. OIG recommends that the Procurement Executive develop and
       issue standardized policies and procedures for Department of State-wide use for the
       administration of interagency acquisition agreements and interagency agreements in
       accordance with pertinent Federal regulations and revise the State First Policy to establish
       that the policy also applies to interagency agreements, since the policy as written
       represents sound business practices.

       Management Response: A/OPE concurred with the recommendation, stating that a
       “working group,” consisting of DCFO [Deputy Chief Financial Officer], A/LM/AQM,
       L/BA [Office of the Legal Adviser, Buildings and Acquisitions], and A/OPE, “has been
       convened . . . to prepare guidance.”

       OIG Reply: OIG considers the recommendation resolved, pending review and approval
       of documentation showing that A/OPE has developed and issued standardized policies
       and procedures for Department of State-wide use for administration of interagency
       acquisition agreements and interagency agreements and has revised the State First Policy
       to establish that the policy also applies to interagency agreements.

       Recommendation 18. OIG recommends that the Procurement Executive, in
       coordination with the Director, Bureau of Administration, Office of Logistics
       Management, Office of Acquisitions Management, develop and issue standardized
       policies and procedures for the review and approval of all types of interagency
       agreements that will ensure compliance with applicable Federal regulations and
       Department of State policies governing each type of agreement.




                                               39

                                       UNCLASSIFIED
                               UNCLASSIFIED

Management Response: A/OPE stated that it and A/LM/AQM “concur[red] with the
recommendation.” A/OPE further stated, “A working group” consisting of DCFO,
A/LM/AQM, L/BA, and A/OPE, “has been convened . . . to prepare guidance.”

OIG Reply: OIG considers the recommendation resolved, pending review and approval
of documentation showing that A/OPE and A/LM/AQM have developed and issued
standardized policies and procedures for reviewing and approving all types of
interagency agreements that will ensure compliance with applicable Federal regulations
and Department policies governing each type of agreement.




                                      40

                               UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, conduct Data Quality
Assessments in accordance with the six-step methodology from the annual guidance provided by
the Office of U.S. Foreign Assistance Resources to ensure that the data used in reporting results
are as complete, accurate, consistent, and supportable as possible.

Recommendation 2. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change (OES/EGC), implement Grants
Policy Directive 16, “Designation of Grants Officer Representative,” by ensuring that the Grants
Officer completes current Grants Officer Representative (GOR) designation memorandums
throughout the life cycles of all grants. OES/EGC should also update its Standard Operating
Procedures manual by aligning all monitoring and evaluation responsibilities under the
designated GOR as directed by Grants Policy Directive 16 and not allowing the re-delegation of
responsibilities to other program officials unless specified in the designation memorandum.

Recommendation 3. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, ensure that the Grants Officer
Representatives, in consultation with the Grants Officer, develop monitoring plans for all future
grant awards using the suggested Department of State templates included in Grants Policy
Directive 42, “Monitoring Assistance Awards.”

Recommendation 4. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the requirement in
Grants Policy Directive 16, “Designation of Grants Officer Representative,” for the Grants
Officer Representatives (GOR) to review, analyze, and provide written evaluation of required
recipient Program Performance and Financial Status Reports to verify timely and adequate
performance and require the GORs’ written evaluation to be documented using the template
included in Grants Policy Directive 42, “Monitoring Assistance Awards.”

Recommendation 5. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, take appropriate actions in
accordance with the Foreign Affairs Handbook (4 FAH-3 H-674) when program performance
reports and financial reports are not submitted in a timely manner.

Recommendation 6. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the guidance
provided in Grants Policy Directive (GPD) 16, “Designation of Grants Officer Representative,”
and GPD 42, “Monitoring Assistance Awards,” and require Grants Officer Representatives to
perform site visits for each grant recipient at least once during the life of the agreement or once
per year for those recipients identified as “high risk.” These visits should then be documented on
templates similar to the Monitoring Assistance Review Guide Worksheet template included in
GPD 42.


                                                41

                                        UNCLASSIFIED
                                         UNCLASSIFIED

Recommendation 7. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, update the language in its formal
solicitation letters for grant awards, as well as the language in all formal grant awards, to include
the requirement for all recipients to provide timely performance reports that describe
achievements in terms of progress toward meeting indicators, as well as goals and objectives.

Recommendation 8. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, utilize Grants Policy Directive
28, “Roles and Responsibilities for the Award and Administration of Federal Assistance” and the
Standard Terms and Conditions for Domestic and Overseas Federal Assistance Awards to
develop standard operating procedures that document responsibilities of the Grants Officer
Representative for monitoring the terms and conditions of all grant awards and promptly
notifying the Grants Officer (GO) of all changes that require the GO’s attention.

Recommendation 9. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, develop procedures to ensure
that the final reports of a recipient are obtained and reviewed by the Grants Officer
Representative for proper close-out of the project and that these documents are submitted in a
timely manner to the Grants Officer for final review and close-out.

Recommendation 10. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs formally designate qualified and trained contracting
officer’s representatives for all interagency acquisition agreements in accordance with the
Department’s State First Policy and Department of State Acquisition Regulations, Part 642, who
are knowledgeable of the monitoring and oversight duties established in the Department’s
Contracting Officer’s Representative Handbook.

Recommendation 11. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, request and review performance
and financial supporting documentation as advised by the Federal Assistance Policy Handbook
to substantiate the information contained in the required reports received from interagency
acquisition agreement recipients and that it maintain appropriate documentation of those reviews.

Recommendation 12. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change (OES/EGC), develop appropriate
standard operating procedures to ensure that reporting requirements are met by interagency
acquisition agreement recipients and, if they are not, that appropriate steps are taken to address
delinquent reporting. Also, OES should coordinate with the Office of U.S. Foreign Assistance
Resources to properly account for the $600,000 in Economic Support Funds transferred to the
U.S. Agency for International Development and, if determined appropriate, work to return the
funds to the Department of State for appropriate use or de-obligation.

Recommendation 13. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the guidance
provided in the Department of State’s Foreign Affairs Handbook and the Contracting Officer’s

                                                 42

                                         UNCLASSIFIED
                                        UNCLASSIFIED

Representative Handbook and require contracting officer’s representatives to perform site visits
for each interagency agreement recipient at least once during the life of the agreement or once a
year for those recipients identified as “high risk.”

Recommendation 14. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs obtain State First Waivers for all future interagency
agreements and maintain approved waivers in its files, as required by State First Policy.

Recommendation 15. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, update the language in its formal
solicitation letters for interagency agreements, as well as the language in all formal interagency
agreements, to include the requirement for all recipients to provide timely performance reports
that describe achievements in terms of progress toward meeting indicators, as well as goals and
objectives.

Recommendation 16. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, update the language in its formal
solicitation letters for interagency agreements, as well as the language in all formal interagency
agreements, to include, for purposes of substantiation, the requirement for all recipients to
maintain supporting documentation for all financial expenditures and all project activities and
pertinent achievements as reported in the recipients’ performance and financial reports.

Recommendation 17. OIG recommends that the Procurement Executive develop and issue
standardized policies and procedures for Department of State-wide use for the administration of
interagency acquisition agreements and interagency agreements in accordance with pertinent
Federal regulations and revise the State First Policy to establish that the policy also applies to
interagency agreements, since the policy as written represents sound business practices.

Recommendation 18. OIG recommends that the Procurement Executive, in coordination with
the Director, Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, develop and issue standardized policies and procedures for the review and
approval of all types of interagency agreements that will ensure compliance with applicable
Federal regulations and Department of State policies governing each type of agreement.




                                                43

                                        UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                   Appendix A
                                 Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to determine whether the administration and the
oversight by the Bureau of Oceans and International Environmental and Scientific Affairs (OES)
were sufficient to ensure that contributions made toward international climate change efforts
were expended in accordance with Department policy and were contributing to the U.S.
Government’s global climate change goals.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objective. Although OIG did perform tests and other auditing procedures to
conduct all audit steps for 12 of the programs included in its sample, OIG was not able to
conduct all audit steps for six Department of Energy (DOE) interagency acquisition agreements
and one non-DOE grant. If OIG had completed audit steps for all 19 programs as planned, other
matters, in addition to the findings and recommendations in this report, may have come to OIG’s
attention and been reported.

        To obtain background for this audit, OIG researched and reviewed Federal laws and
regulations related to the administration and oversight of Federal foreign assistance awards, to
include the Foreign Assistance Act of 1961, as amended, and the Federal Acquisition
Regulation. OIG also reviewed the Department’s Congressional Budget Justifications reflecting
global climate change budget requests and information on prior and ongoing international
agreements on climate change for historical context. OIG also reviewed Department policies and
additional guidance related to grants and interagency acquisition agreements, including the
Federal Assistance Policy Handbook, the Foreign Affairs Handbook, and multiple Grants Policy
Directives.

        OIG conducted fieldwork for this audit from October 2011 to March 2012. Specifically,
to gain an understanding of climate change initiatives and guidance on the administration,
oversight, and reporting requirements for Federal assistance awards, OIG interviewed officials
from OES’s Office of Global Change (OES/EGC); the Office of the Special Envoy for Climate
Change; the Office of U.S. Foreign Assistance Resources; and the Bureau of Administration’s
Office of the Procurement Executive (A/OPE) and its Office of Logistics Managements, Office
of Acquisitions Management (A/LM/AQM).

        OIG also conducted site visits for a sample of 12 climate change programs in New Delhi,
India; Hyderabad, India; Washington, DC; and Mississauga, Canada. (The criteria used to select
the 12 sample programs are in the section “Detailed Sampling Methodology” in this appendix).
Of these 12 programs, nine were executed under the Asia-Pacific Partnership on Clean
Development and Climate (APP), an international, voluntary, public-private partnership among
the partner countries of Australia, Canada, India, Japan, the People’s Republic of China, South
Korea, and the United States. OES/EGC created programming from FYs 2006–2008 within the

                                              44

                                      UNCLASSIFIED
                                            UNCLASSIFIED

themes of the following government and/or business taskforces established by the APP:

            Cleaner fossil energy                                        Aluminum
            Renewable energy and distributed generation                  Cement
            Power generation and transmission                            Coal mining
            Buildings and appliances                                     Steel

       During site visits, OIG spoke with program personnel regarding their roles and
responsibilities, examined deliverables executed by each recipient, and reviewed supporting
documentation for a selection of program reports to verify reported information. OIG also
reviewed a selection of financial reports to determine whether there was adequate and accurate
supporting documentation for the program expenditures (for example, timesheets, receipts, and
invoices) to ensure that Department funds were spent in accordance with each award or
agreement.

        OIG provided a draft of this report to OES, A/OPE, and A/LM/AQM. A/OPE
coordinated its response with AQM. (OES’s response is in Appendix D, and A/OPE’s response
is in Appendix E.)

Prior Reports

        Between 2007 and 2011, the Government Accountability Office issued 11 reports and
testimonies related to climate change initiatives. Of the 11 reports, the report most directly
applicable to OIG’s audit was issued in 20111 and presented concerns regarding the degree to
which Federal funding was aligned with strategic priorities. The report stated that methods for
defining and reporting climate change funding were not interpreted consistently across the
Federal Government and that Federal officials do not have a shared understanding of strategic
priorities. Although not the sole focus of OIG’s audit, alignment of OES/EGC climate change
funds with climate change goals and objectives played a role in answering OIG’s overall audit
objective.

Use of Computer-Processed Data

         To assess the reliability of computer-processed data, OIG interviewed officials
knowledgeable about the data, reviewed existing documentation related to the data sources, and
performed some tracing to source documents. More specifically, OIG obtained interagency
acquisition agreements and grants data from the 12 fund recipients selected as part of its sample
and traced these data from computerized documentation to the source documents. From these
efforts, OIG determined that the data were sufficiently reliable to support the conclusions and
recommendations in this report.



1
 Climate Change: Improvements Needed To Clarify National Priorities and Better Align Them With Federal
Funding Decisions (GAO-11-317, May 2011).

                                                     45

                                            UNCLASSIFIED
                                              UNCLASSIFIED


Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to expenditures
for grants and interagency acquisition agreements, as well as the mechanisms used to capture
reporting results, for a sampling of OES/EGC programs related to climate change. Specifically,
OIG gained an understanding of the Department’s processes for reporting climate change results
for the annual Foreign Assistance Performance Plan and Report. The OIG audit team discussed
issues identified from its testing with Department officials to better understand the reasons for
the exceptions. In addition, OIG gained an understanding of the Department’s policies and
procedures related to the expenditures of Federal funds dedicated to climate change and
determined how the Department monitors these expenditures. OIG identified internal control
deficiencies during its audit of climate change programs, as detailed in the section “Audit
Results” of the report.

Detailed Sampling Methodology

       OIG’s sampling objective was to determine whether OES/EGC’s monitoring and
oversight of climate change programs were sufficient to ensure that the goals and objectives were
achieved, that funds were spent accordingly, and that all programmatic and financial reporting
could be substantiated.

        Population

        OIG obtained two listings of climate change programs funded from 2006–2010 from
OES/EGC and performed a reconciliation of both lists to determine that OES/EGC had funded
96 climate change programs during this timeframe, for a total of $214 million. Funding for the
programs, which were executed worldwide, ranged from $45,000 to $14,000,000. Information
from the reconciled list was used to select a sample of 19 programs2 executed as grants and
interagency acquisition agreements, which totaled $34 million, or 16 percent, of the funding for
the 96 programs. However, because of scope limitations, only 12 of the 19 programs were
reviewed (see the sections “Sample Selection of Climate Change Programs” and “Scope
Limitations” in this appendix for more details).

        Sample Selection of Climate Change Programs

       OIG used judgment sampling to select 19 OES/EGC climate change programs to conduct
an independent verification and validation of performance, deliverables, and expenditures for
each program. The primary considerations in selecting these programs included programs that
received funding of $600,000 or more if the programs were located in the Washington, DC, area
and $500,000 or more if the programs were located outside the Washington, DC, area and that



2
 These 19 programs comprised 11 interagency acquisition agreements and 8 grants, five of which were cooperative
agreements. For the purposes of the audit, all cooperative agreements were reviewed for compliance with applicable
grants-related policies and procedures.

                                                       46

                                              UNCLASSIFIED
                                               UNCLASSIFIED

were started on or before September 30, 2010.3 Another factor that OIG considered when
developing the sample selection was the geographical location of the program office and/or the
country supported. Specifically, OIG considered only those programs when two or more
programs per location could be reviewed.4 The 19 programs selected for review are shown in
Table 1.

Table 1. Sample Selection of OES/EGC Climate Change Programs
                                                                                                Amount of
                                                                       Start Date of           Funding From
             Program Number              Location of Recipient           Program                 OES/EGC
    1    S-LMAQM-08-GR-131              Washington, DC             September 15, 2008                 $975,258
    2    S-LMAQM-08-GR-136              Washington, DC             September 23, 2008                 $963,572
    3    S-OES-09-IAA-015               Washington, DC             August 31, 2009                    $600,000
    4    S-LMAQM-08-GR-132a             Pittsburgh, PA             September 23, 2008               $1,103,300
    5    S-OES-10-IAA-0019b             Pittsburgh, PA             October 1, 2010                    $500,000
    6    S-OES-07-IAA-0018              New Delhi, India           September 20, 2007               $5,400,000
    7    S-OES-09-IAA-016               New Delhi, India           October 1, 2009                  $2,000,000
    8    S-OES-10-IAA-0016              New Delhi, India           September 30, 2010             $10,500,000
    9    S-LMAQM-08-CA-032              New Delhi, India           February 6, 2008                   $669,870
    10   S-LMAQM-08-CA-012              New Delhi, India           January 28, 2008                   $581,932
    11   S-LMAQM-08-CA-017              Hyderabad, India           February 25, 2008                  $500,000
    12   S-LMAQM-08-CA-033              Hyderabad, India           March 10, 2008                     $600,000
    13   S-LMAQM-08-CA-020c             Oakland, CAd               January, 29, 2008                  $757,000
    14   S-OES-07-IAA-0023              Berkeley, CAd              September 30, 2007               $1,000,000
    15   S-OES-08-IAA-0018              Berkeley, CAd              October 1, 2008                    $1,897,175
    16   S-OES-09-IAA-018               Berkeley, CAd              July 31, 2009                       $500,000
    17   S-OES-09-IAA-0007              Berkeley, CAd              March 15, 2009                     $1,000,000
    18   S-OES-09-IAA-0022              Washington, DCd            September 1, 2009                  $3,948,750
    19   S-OES-10-IAA-0021              Washington, DCd            September 1, 2010                    $698,000
         TOTAL OES/EGC FUNDING FOR 19 CLIMATE CHANGE PROGRAMS                                  = $34,194,857
Source: OIG generated based on data provided by OES/EGC.
a
  OES/EGC originally indicated that the documentation for this program was in Pittsburgh, PA; however, OIG
discovered that the documentation was located at the grantee office in Mississauga, Canada, where the site visit was
conducted.
b
  OIG did not conduct an on-site visit of this program because expenditures for this agreement were minimal.
Instead OIG held a teleconference with officials for this program and reviewed documentation from OIG’s home
office.
c
  Program S-LMAQM-08-CA-020 was included because Oakland, CA, was less than 10 miles from Berkeley, CA.
d
  Audits for Programs 13-19 were not executed because of the scope limitations described.


3
  Program S-OES-10-IAA-0019 began on October 1, 2010, which was after September 30, 2010, but the program
was still included in the 19 programs.
4
  OIG excluded all programs in support of Methane-to-Markets, which did meet OIG’s criteria, because OES/EGC
had contracted for an independent evaluation of these programs.


                                                        47

                                               UNCLASSIFIED
                                              UNCLASSIFIED


Scope Limitations

        OIG conducted an independent verification and validation of 12 of the 19 programs
selected as part of its sample. The seven programs that were not reviewed consisted of six DOE
interagency acquisition agreements5 and one non-DOE grant.6 With regard to the DOE
programs, on December 15, 2011, OIG’s Office of Audits requested that DOE’s OIG examine
the six DOE agreements and express an opinion as to whether program information had been
reported to the Department of State accurately and to also validate that the funds had been used
in accordance with the agreements so that this information could be included in OIG’s audit
report. In response to OIG’s request, the DOE Inspector General provided two audit reports7 that
reviewed (1) the contractor’s Internal Audit cost allowability audits and (2) questioned costs and
internal control weaknesses impacting allowable costs that were identified in prior audits.
However, after reviewing these reports, OIG determined that the results contained in the reports
were not useful in supporting its overall audit objective.




5
  OIG conducted a limited review of two of these agreements to determine that OES/EGC did not always ensure the
quality and supportability of data used to report the programmatic results of these two programs.
6
  Since OIG did not conduct the site visits for the four DOE agreements in Berkeley, CA, OIG could not justify the
travel costs to visit the non-DOE grant recipient in Oakland, CA. Therefore, that site visit was canceled.
7
  Report on Audit Coverage of Cost Allowability for Lawrence Berkeley National Laboratory for the Period June 1,
2005 thru September 30, 2008 Under Department of Energy Contract No. DE-AC02-05CH11231 (OAS-V-10-10,
April 2010) and Report on Audit Coverage of Cost Allowability for Lawrence Berkeley National Laboratory for the
Period October 1, 2008 thru September 30, 2010 Under Department of Energy Contract No. DE-AC02-05CH11231
(OAS-V-12-04, February 2012).

                                                       48

                                              UNCLASSIFIED
                                           UNCLASSIFIED


                                                                                             Appendix B

         Federal Policies Governing Interagency Acquisition Agreements
                           and Interagency Agreements
       There are specific Federal policies governing interagency acquisition agreements and
interagency agreements and specific policies governing the use of those agreements.

        The Federal policies governing interagency acquisition agreements are as described.

        Office of Management and Budget Guidance. A June 6, 2008, Office of Management
and Budget (OMB) memorandum1 defines an interagency acquisition as “the term used to
describe the process by which one agency (requesting agency), uses the contracts and/or
contracting services of other agencies (servicing agencies) to obtain supplies and services.” This
memorandum also states that it “does not address all interagency business transactions, only
those that are undertaken for the primary purpose of obtaining services or products from
contractors. Accordingly, this document does not address. . . reimbursable work performed by
federal employees (other than acquisition assistance), or interagency activities where contracting
is incidental to the purpose of the transaction.”

        Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR),
Subpart 2.1, “Definitions,” defines interagency acquisitions similar to the definition in OMB’s
June 6, 2008, memorandum. The FAR states that an “interagency acquisition means a procedure
by which an agency needing supplies or services (the requesting agency) obtains them from
another agency (the servicing agency), by an assisted acquisition or a direct acquisition.” FAR
Subpart 17.5, “Interagency Acquisitions,” expands on this definition and states that this subpart
“applies to interagency acquisitions, . . . when–(1) An agency needing supplies or services
obtains them using another agency’s contract; or (2) An agency uses another agency to provide
acquisition assistance, such as awarding and administering a contract, a task order, or delivery
order.” The FAR further states, “This subpart does not apply to–(1) Interagency reimbursable
work performed by Federal employees . . . or interagency activities where contracting is
incidental to the purpose of the transaction.”

        The Federal policies governing interagency agreements are as described.

         Department of the Treasury Interagency Agreement Instructions. The Department
of the Treasury, Bureau of Financial Management Service, issued Interagency Agreement
Instructions, dated August 17, 2011, which state that the interagency agreement form is “the
standard form to be used Governmentwide for all reimbursable agreements at the trading partner
level, including, but not limited to: agreements between agencies, agreements within agencies,



1
 Memorandum for Chief Acquisition Officers, Senior Procurement Executives, “Improving the Management and
Use of Interagency Acquisitions,” OMB, June 6, 2008, p.1.

                                                    49

                                           UNCLASSIFIED
                                               UNCLASSIFIED

grant-related agreements,2 and assisted acquisitions.3” These instructions also direct agencies to
two documents for developing standard Government-wide business practices for the agencies’
reimbursable activities.

            Department of the Treasury Financial Manual. The Department of the Treasury
             Financial Manual, Volume I, Bulletin 2007-03, “Intragovernmental Business Rules,”
             dated November 15, 2006, states, “These Rules apply to all intragovernmental
             business, specifically, transactions that entail the exchange of goods and services, . . .
             and transfers between Federal entities.” The bulletin further states, “These Rules
             provide Federal entities with guidance for recording and reconciling
             intragovernmental exchange, . . . and for purposes of these Rules, the requesting
             agency is a ‘Buyer,’ the providing agency is a ‘Seller,’ and, collectively, they are
             ‘Trading Partners.’”

            General Services Administration Guidance. The General Services Administration,
             Financial Systems Integration Office, issued a publication4 September 2009 “to
             standardize common financial business activities and processes to ensure that
             financial managers assessed programs and made decisions with timely and accurate
             data.” This publication further notes, “Through standardization, Federal entities are
             better positioned to implement lower cost, lower risk, and higher performing financial
             management solutions.”

             Within this guidance, Chapter 5.0, “Reimbursables Management Processes,” details
             best practice business processes for administering and managing interagency
             transactions. The reimbursables management process spans the full life cycle of an
             interagency agreement from the establishment and negotiation of an agreement
             between a buyer (requesting agency) and seller (servicing agency) where there is a
             bona fide need for an exchange of goods and/or services all the way through the
             close-out out of the agreement. According to this guidance,5 the benefits of effective
             reimbursable management include the following:

                 o    Improved checks and balances in the reimbursable process.
                 o    Improved understanding of interagency agreement management process.
                 o    Improved communication between the buyer and seller.
                 o    Improved audit trail through recording and reconciliation activities by the
                      buyer and seller.


2
  Grant-related interagency agreements are reimbursable agreements where the servicing agency awards or manages
grant(s), grant program(s), or otherwise performs grant-type services for public benefit on behalf of the requesting
agency.
3
  Assisted Acquisitions are reimbursable agreements, where the Servicing Agency provides acquisition support and
awards contracts on behalf of the Requesting Agency’s requirements for products or services.
4
  The General Services Administration, Financial Management Systems Standard Business Processes for U.S.
Government Agencies: Standard Business Processes, p. xvii.
5
  Ibid., ch. 5.0, “Reimbursables Management Processes,” p. 5-2.

                                                        50

                                               UNCLASSIFIED
                            UNCLASSIFIED

   o Improved recognition of United States Standard General Ledger accounting
     transactions in the reimbursable process.
   o Improved interagency and government-wide reporting.

The General Services Administration guidance requires the buyer, among many other
things, to determine that there is authority to enter into an interagency agreement to
fill the need, which can include Section 632(b) of the Foreign Assistance Act of 1961,
as amended.




                                    51

                            UNCLASSIFIED
                                             UNCLASSIFIED


                                                                                                 Appendix C

 Intra-Governmental Expenses Transferred From the Department of State to
          Other U.S. Government Agencies in FYs 2010 and 2011

        For purposes of this report, intra-governmental expenses include all expenses transferred
from the Department of State to other U.S. Government agencies. The major agencies and total
dollar amounts transferred for FYs 2010 and 2011 are shown in Table 1.

Table 1. Department of State Intra-Governmental Expenses for FYs 2010 and 2011
                                                 FY 2010             FY 2011           Total Expenses for
          U.S. Government Agency                 Expenses            Expenses          FYs 2010 and 2011
 Agency for International Development           $504,191,276        $464,129,628              $968,320,904
 General Services Administration                $357,975,569        $397,399,848              $755,375,417
 Government Printing Office                     $203,111,443        $201,794,727              $404,906,170
 Central Intelligence Agency                     $53,721,257          $18,017,344              $71,738,601
 Department of Justice                          $277,558,581        $281,506,034              $559,064,615
 Department of Defense                          $685,024,199        $673,273,108            $1,358,297,307
 Department of the Treasury                      $52,413,745           $8,139,199              $60,552,944
 Department of Energy                            $28,325,037          $67,673,470              $95,998,507
 Department of Labor                               $8,758,023          $7,699,270              $16,457,293
 Department of Homeland Security                 $16,731,479          $17,740,206              $34,471,685
 Department of Transportation                      $7,927,138         $13,627,999              $21,555,137
 Department of Health And Human Services           $6,044,732          $9,790,659              $15,835,391
 Department of Agriculture                         $4,903,576         $13,731,812              $18,635,388
 Department of Commerce                            $4,793,135          $5,878,973              $10,672,108
 National Institutes of Health                   $15,985,907          $18,415,801              $34,401,708
 National Security Agency                          $6,074,085                                   $6,074,085
 Office of Personnel Management                    $4,767,567                                   $4,767,567
 United States Postal Service                    $22,330,198                                   $22,330,198
 Environmental Protection Agency                                      $10,519,694              $10,519,694
 Department of the Interior                                            $3,832,140               $3,832,140
 Remaining Agencies/Agreements                   $59,822,650          $66,910,230             $126,732,880
 Total                                        $2,320,459,597      $2,280,080,142            $4,600,539,739
Source: Prepared by OIG based on information provided by its financial audit contractors.




                                                      52

                                             UNCLASSIFIED
UNCLASSIFIED


               Appendix D




     53

UNCLASSIFIED
UNCLASSIFIED




     54

UNCLASSIFIED
UNCLASSIFIED




     55

UNCLASSIFIED
UNCLASSIFIED




     56

UNCLASSIFIED
UNCLASSIFIED




     57

UNCLASSIFIED
UNCLASSIFIED




     58

UNCLASSIFIED
UNCLASSIFIED




     59

UNCLASSIFIED
UNCLASSIFIED




     60

UNCLASSIFIED
UNCLASSIFIED




     61

UNCLASSIFIED
UNCLASSIFIED




     62

UNCLASSIFIED
UNCLASSIFIED




     63

UNCLASSIFIED
              UNCLASSIFIED


                             Appendix E




(b) (6)
    (b) (6)




                   64

              UNCLASSIFIED
UNCLASSIFIED




     65

UNCLASSIFIED
                                   UNCLASSIFIED


Major Contributors to This Report

Richard Astor, Director
Division of Contracts and Grants
Office of Audits

Melinda Perez, Audit Manager
Division of Contracts and Grants
Office of Audits

Kathleen Sedney, Auditor
Division of Contracts and Grants
Office of Audits

Gretchen Trimble, Auditor
Division of Contracts and Grants
Office of Audits

Cristina Ward, Auditor
Division of Contracts and Grants
Office of Audits

Caryn White, Auditor
Division of Contracts and Grants
Office of Audits

Clarissa Olivarez, Management Analyst Trainee
Division of Contracts and Grants
Office of Audits




                                        66

                                   UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
